<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

 JIM KOLBE, Arizona                 JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina  JULIAN C. DIXON, California
 RALPH REGULA, Ohio                 ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                   LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

    Jim Kulikowski, Jennifer Miller, Mike Ringler, and Cordia Strom,
                           Subcommittee Staff
                                ________

                                PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 57-159                     WASHINGTON : 1999


                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois          NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky               MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                 JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia               STENY H. HOYER, Maryland
 TOM DeLAY, Texas                      ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                    MARCY KAPTUR, Ohio
 RON PACKARD, California               NANCY PELOSI, California
 SONNY CALLAHAN, Alabama               PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York              NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina     JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                 ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma       JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                  JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan             ED PASTOR, Arizona
 DAN MILLER, Florida                   CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                  DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey   ROBERT E. ``BUD'' CRAMER, Jr., 
 ROGER F. WICKER, Mississippi          Alabama
 MICHAEL P. FORBES, New York           JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,            MAURICE D. HINCHEY, New York
Washington                             LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,            SAM FARR, California
California                             JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                   CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                  ALLEN BOYD, Florida                  
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           THURSDAY, APRIL 15, 1999

               SEX OFFENDER MANAGEMENT ASSISTANCE PROGRAM

                                WITNESS

HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW HAMPSHIRE
    Mr. Rogers. The Committee will come to order.
    We will now commence the hearing at which individual 
Members of Congress will present their views on various aspects 
of the administration's budget request for fiscal year 2000.
    Your statements will be made a part of the record and we 
hope you can summarize and keep your remarks within the 5-
minute frame. I think the first member on the schedule is the 
gentleman from New Hampshire, Mr. Bass.
    Welcome.
    Mr. Bass. Thank you very much, Mr. Chairman.
    I am glad to be here, and thank you for giving me the 
opportunity to testify and I assure you that I will not take 5 
minutes.
    I am here to testify in favor of funding for a program 
which was passed in a bill last year. The program is called the 
Sex Offender Management Assistance Program. As you know, back 
in the 105th and 104th Congresses we passed the Child 
Protection Sexual Predator Punishment Act, and, Megan's Law, 
which required that local communities establish procedures for 
notification, publication of the names and addresses of sex 
offenders.
    And there was a provision in the law that, in essence, says 
that if you fail to comply with the provisions of the law you 
could lose up to 10 percent in Byrne program funds for your 
state.
    Now, a lot of states have been attempting to comply with 
this very worthwhile and excellent law, Megan's Law, but they 
have run into some expenses. There has been the legislative 
process, of course, but then after that the problems of 
implementation on a community by community basis.
    I was able to get this little program authorized last year 
at $25 million for fiscal year 1999 and 2000. I would urge the 
Committee to consider authorizing this program for this fiscal 
year.
    For one reason it is the last year that the program is 
authorized so that if you do not authorize any money this year, 
I will have to go back for reauthorization. At that point, we 
will want to reexamine the state of the implementation of 
Megan's Law to ensure that these resources are still needed.
    I would point out that Megan's Law is a great law but it is 
indirectly, at least, an unfunded Federal mandate in that you 
do suffer a penalty if you fail to spend the additional 
resources required by Federal law to comply with Megan's Law.
    I would hope that the Committee would consider giving this 
small block grant program a chance to have funds appropriated 
so that local communities all over the country can comply with 
Megan's Law smoothly, equitably and in such a fashion so that 
taxpayers at a local level are not unduly affected by this law.
    So, I will end with that and answer any questions.
    Mr. Rogers. Well, we certainly appreciate your support of 
this law. And we will certainly give it very due consideration 
for funding. We do not have our allocation yet, and do not know 
where we are going to get some money. We know we are going to 
be hurting for certain, but certainly this is on our list.
    Mr. Bass. Thank you, Mr. Chairman, and as a member of the 
Budget Committee I feel your pain. [Laughter.]
    Mr. Rogers. Well, some people say that you caused our pain. 
[Laughter.]
    Mr. Bass. Thank you very much, Mr. Chairman.
    Mr. Rogers. Thank you, Congressman Bass.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Visclosky.
                              ----------                              

                                          Thursday, April 15, 1999.

                             COPS PROGRAMS


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Rogers. Mr. Visclosky, welcome. We will make your 
statement a part of the record, and, we would welcome your 
summary.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Serrano is here simply to receive a portion of the 
monies allocated to Mr. Dickey and I would be grateful for 
that. [Laughter.]
    Mr. Chairman, in all seriousness, you and the Subcommittee 
were extremely responsible and extremely last year in fully 
funding the Bulletproof Vest Partnership Program which was a 
new program that is now up and running. And the administration 
has put in a request for an additional $25 million and, 
obviously, I am here, Mr. LoBiondo, I am sure will be 
testifying before you, to support that request.
    The other request before you is for a $9.3 million earmark 
for the Northwest Indiana Anti-Crime Information System. One of 
the communities I represent, Gary, Indiana, while we have made 
great progress in reducing the homicide rate by 28 percent in 
the last 4 years, still leads the nation in per capita 
homicides.
    The problem we are experiencing is we have a task force 
from the sheriff department and other communities engaged in 
operations not only in Gary but other communities and the 
inability during operations for many of these departments to 
communicate with each other as far as needs and backups. And we 
would appreciate the committee's consideration as far as the 
earmark.
    Mr. Rogers. Well, first off, Mr. Visclosky, I want to 
congratulate you and thank you for your initiative on the 
Bulletproof Vest Partnership Grant Act. You were the introducer 
of the Act and we salute you. We thought it was so worthy, that 
we fully funded that this current year and we will continue to 
support that. That is a wonderful idea that you had.
    On the other aspect that you have testified about, there 
are, as you know, administrative grants that they can apply 
for. The grants program that this subcommittee approved and 
appropriated money for is in the balance of the COPS Program.
    So, I would encourage you, pending this proposal that you 
have, while you pursue this, I would also encourage them to 
pursue a grant administratively through the Department of 
Justice for the equipment that you are desperate for, 
understandably.
    At any rate, we will work with you and do all we can to 
help you.
    Mr. Visclosky. I appreciate that very much, Mr. Chairman.
    Thank you.
    Mr. Rogers. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Gilchrest.
    Mr. Gilchrest. I thought Mr. Dickey was next.
    Mr. Rogers. We are trying to put him off as long as we can.
    Mr. Gilchrest. I do not blame you then, Mr. Chairman.
                              ----------                              

                                          Thursday, April 15, 1999.

   NOAA CHESAPEAKE BAY RESEARCH PROGRAM, OYSTER DISEASE RESEARCH AND 
   HARMFUL ALGAE BLOOMS, SUSQUEHANNA RIVER BASIN FLOOD FORECAST AND 
        WARNING SYSTEM AND THE NATIONAL MARINE SANCTUARY PROGRAM


                                WITNESS

HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Rogers. We will make your statement a part of the 
record and invite you to summarize it.
    Mr. Gilchrest. All right.
    I have 5 critical areas. One of them is the NOAA Chesapeake 
Bay Research Program. This is interconnected with the 
Chesapeake Bay Program which started about 20 years ago to 
restore the Chesapeake Bay to its vibrancy as far as a 
fisheries industry is concerned and an enormous generator of 
recreational dollars.
    It is $1.89 million and it has been very successful over 
the last 20 years. It provides not only the scientists with the 
kind of information that they need to restore the Bay and 
reduce the pollution and nutrients and bring back the health of 
the fisheries, but it provides valuable, easily accessible 
information to local and elected officials so that they can 
more carefully manage the growth in the region and the 
watershed around the Chesapeake Bay.
    Oyster disease research, $3 million. And I would like to 
say, Mr. Chairman, compared to the rest of the Federal budget, 
when we put these few dollars into these programs, the enormous 
benefits that result are pretty incredible.
    Oyster disease. We have had two problems with diseases 
called MSX and dermal. These two diseases likely came in on 
ballast water about 50 years ago and they have been persistent 
ever since.
    One of the problems with our oysters that we have 
discovered is that they can resist these diseases if they are 
in a healthy procreation state. To be in a healthy procreation 
state they have to be restored to the way they used to be when 
John Smith came here, and that is, in large piles.
    When you put them in large piles in their natural state as 
opposed to dredging along the bottom, the procreation rate and 
the health of the oyster is changed for the better 
significantly. This came as a result of all of the research 
that has been going on for a number of years.
    The other thing is that if you have a healthy state of 
oysters in the Bay along with a number of other filter-feeders, 
certain kinds of fish, clams and things like that, they filter 
out an enormous number of nutrients that come into the Bay.
    And one last comment on oyster research. About 30 percent 
of the overload of nutrients in the Chesapeake Bay comes from 
air deposition: Automobiles, power plants and things like that. 
And, so, you have more nutrients coming into the Bay, not to 
mention what comes in on the land, and you have less of the 
natural process being used to filter out these nutrients. So, 
things tend to get a little worse and a little worse and a 
little worse and so on.
    But oyster disease, this oyster disease research money is a 
small amount of money but it goes an awful long way.
    The other thing, number three, is harmful algae blooms. You 
have probably heard over the last couple of years about this 
thing called pfisteria, which is a tiny little microorganism 
which has been around, who knows, 300 million years and it has 
23 different life cycles.
    One of the life cycles which very rarely has erupted on 
Planet Earth, let alone the Chesapeake Bay, is a toxic 
lifestyle, but a toxic lifestyle that comes about as a result 
of certain conditions: High nutrients, warm shallow water with 
a brackish nature to it.
    And not only is pfisteria bad for fish because it can kill 
tens of thousands--in North Carolina, it literally killed about 
a billion menhaden--and it has killed tens of thousands in the 
Chesapeake Bay.
    The other thing is pfisteria is dangerous to people. If you 
happen to be in the water at the time that it is in its toxic 
stage, you can have pretty severe neurological problems that 
are persistent. So, we are asking for $17.5 million there.
    The Susquehanna River Basin Flood Forecast and Warning 
System is a system of several States, Pennsylvania, New Jersey, 
Maryland, and it was created about 15 years ago because the 
Susquehanna River has a tendency because of the geography of 
its location, high mountainous region and a number of rain 
events, mixed with snow events, it is one of the most dangerous 
flooded areas in the country.
    And, so, this is an early warning system for residents that 
live along the river to tell them when the potential for a 
flood is. You might have three feet of snow on the ground in 
Pennsylvania and it could be 25 or 30 degrees and then a few 
days later you might have two or three inches of rain and all 
of a sudden this huge amount of water comes right down that 
narrow channel and it is a way of predicting what nature is 
going to do.
    The last one is number five, National Marine Sanctuary 
Program. This is a program that has two very positive--actually 
everything I am saying here this morning, I am only bringing up 
the positive things of these programs--two really very positive 
things, the National Marine Sanctuary Program, and they are 
around the country, whether it is the Atlantic, the Gulf of 
Mexico or the coastal areas of California.
    One is that it is like a water national wildlife refuge. It 
is a place for the life of the sea to have some type of 
sanctuary, where there is an effort to make the water pristine 
and clean and that marine ecosystem benefit from it.
    The other thing is marine sanctuaries, obviously, are along 
the coastal areas of the United States. And in an economic 
sense, 75 percent of the harvestable, commercial fish spawn in 
the areas of marine sanctuaries. So, from the benefit of a 
fisheries perspective, an economic perspective, and an 
environmental perspective for the marine ecosystem that is also 
a positive program.
    That is all I have, Mr. Chairman, and the gentleman from 
New York, and I appreciate your time.
    Mr. Rogers. Well, this Subcommittee, as you know, has been 
supportive of all 5 of these programs.
    Mr. Gilchrest. Yes, sir.
    Mr. Rogers. And have funded all 5 of your targeted 
programs. And I see no reason why we would want to stop now. 
You have been very persistent and persuasive----
    Mr. Gilchrest. Thank you.
    Mr. Rogers [continuing]. In support of these matters and a 
lot of what we have done has been due to your efforts. So, you 
are very diligent and effective.
    Mr. Gilchrest. Well, thank you very much and Mr. Serrano.
    Mr. Serrano. Any forecast on the crab season this year?
    Mr. Gilchrest. Unfortunately, the crab season seems to have 
dropped and the forecast is that it is going go be minimal. But 
I would, if the gentleman requests, make sure we get a bushel 
of crabs in here. [Laughter.]
    Mr. Serrano. I will take that when I advise the chairman on 
your appropriation.
    Mr. Gilchrest. Sometimes during the appropriations process 
we will get a bushel of crabs up here.
    Mr. Rogers. Thank you, Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Cramer.
                              ----------                              

                                          Thursday, April 15, 1999.

                  CHILDREN'S ADVOCACY CENTER PROGRAMS


                                WITNESS

HON. BUD CRAMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALABAMA
    Mr. Cramer. Good morning, Mr. Chairman.
    Mr. Rogers. You are recognized. We will place your 
statement in the record and if you would like to summarize it 
within 5 minutes, we would appreciate it.
    Mr. Cramer. I will do it within 5 minutes for sure and 
perhaps even briefer than that. Mr. Ranking Member, welcome to 
the Committee again, formally, though I have welcomed you to 
the Committee in the past.
    I am glad to be back again to talk about the Children's 
Advocacy Center Programs, Mr. Chairman. And I have with me 
Nancy Chandler, back here, who is the Executive Director from 
Memphis, Tennessee, whose office is now in Washington, D.C. as 
a result of the funding that this Committee has given to this 
wonderful national network organization.
    We have come a long way since we first obtained funding 
from this Committee and for the Ranking Member's benefit, these 
programs are child-abuse intervention programs. I was District 
Attorney in my prior political life and we, in the system, the 
child protective services system, we in the law enforcement or 
criminal justice system, had kids coming through the system 
that were having to be bounced from one agency to another. I 
was interviewing kids on the 4th floor of the District 
Attorney's office of a 10-story tall building in my moderate-
sized city there in North Alabama.
    And we said, wait a minute. This 9-year old has got to go 
to court on the civil side, maybe on the criminal side, as 
well, in order to be rescued? And then mental health services 
did not exist, medical services did not exist.
    And we decided that we needed a one-stop service center 
where the social workers, the prosecutors, the police, be it 
sheriffs, be it city police, could leave where they work and 
work together and train together to develop expertise about 
what kids were saying. And then, in some cases, more 
importantly, what to do with them or what to do with the 
families that were torn apart by this kind of abuse?
    So, we started off and are mainly still a child abuse 
intervention program. We started with a pilot program there in 
North Alabama. Now, we have at least 400 of these programs that 
exist around the country.
    In New York, alone, I visited the programs in Manhattan, in 
the Bronx, in Brooklyn, as well. In Kentucky we have a program 
in Louisville, a program in Lexington. We have done training 
programs in Kentucky, as well, and in Alabama, a State that 
does not have many resources, we have got 17 of the programs 
that exist.
    In 1992, we were a membership organization and we had 22 
programs that were members and now we have 200 programs that 
are full members, 100 associate members.
    In the past year, though, we have come a long way. The 
Congressional Spouses have adopted this program as their 
principle program for the next year. The District of Columbia 
finally opened a Children's Advocacy Center, but we are working 
on a firehouse--I was talking to the new Mayor yesterday--a 
historic firehouse over here, across the hill in front of the 
Hyatt Regency. It would be a perfect location for an operating 
District of Columbia Children's Advocacy Center on the first 
floor, and then on the second and third floors our national 
headquarters, as well.
    The private sector mainly supports these programs as they 
exist around the country. So, at a time when the public 
agencies are overwhelmed with these cases, the private sector 
joins with the public sector to help fund and create a place 
and maintain a budget for these programs.
    This past year, we intervened with 54,000 children around 
the country. So, we think we are doing the kind of job that 
makes sense.
    We enjoyed $5.5 million in funding for last year. We are 
asking to be considered for $6.5 million next year. Why an 
increase during the still tough budget times? That is because 
the numbers have grown in our program and I think that we have 
come to the table with private sector support that would 
justify these figures.
    By the way, Mr. Chairman, the ``Barney'' children's TV 
show, they are doing a 2-year road tour where Barney and 
Company goes out and has concert performances around the 
country. They have adopted this program as the program that 
they will endorse. And they will create a little video that 
will be used in the Center saying Barney wants kids to talk 
about bad things that happen.
    They are going to come into D.C. hopefully at this historic 
fire center during the next several months when they kick this 
tour off. And with the Congressional Spouses they are going to 
have a ribbon cutting there and try to encourage the private 
sector to do more to help these programs.
    So, I think they are remarkable programs that are deserving 
of the support, still deserving of the support of this 
committee and maybe a little increase in funding. But most 
importantly, on behalf of this national network organization, I 
want to thank this committee, the staff of the committee as 
well for the support and the reception that we have been given 
over the years.
    And I hope that we have returned that kind of opportunity 
by creating a bigger network of programs that are rescuing kids 
and making a difference in the lives of children and families 
all over the country.
    Mr. Rogers. The gentleman certainly has been a champion of 
this program, and he is the reason why this Subcommittee has 
seen fit to fund the program in the past. And it has now proven 
itself, as you have said, and the problem that we have, of 
course, is that we do not have any money.
    In fact, we are going to have less than last year it looks 
like. So, any increases for anything is going to have to really 
be extraordinary. But, we are very well aware of the success of 
what you and the program are doing.
    Mr. Cramer. Thank you.
    Mr. Rogers. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Dickey.
                              ----------                              

                                          Thursday, April 15, 1999.

         SMALL BUSINESS ENTREPRENEURS AND EXCESSES BY THE EEOC


                                WITNESS

HON. JAY DICKEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
    Mr. Rogers. We will make your written statement a part of 
the record, and we encourage you to be brief.
    Mr. Dickey. Are you talking to me? [Laughter.]
    I want to thank the Chairman for allowing me to come today 
and also for the colloquy that we had on the floor last year. I 
am here on behalf of small business persons all over the United 
States. And I want to give three examples of how the EEOC is 
terrorizing small business even if they have not done it 
actually, it is the fear that comes and the perception that 
comes from three different circumstances.
    The first is in Joe's Stone Crab in Miami Beach. It has 
been owned for 85 years by a minority family. It has had 
diversity practices long before it was required by law. It is 
owned by a female. It has 22 percent female employees. But 
their waiters, because they carry heavy trays of food long 
distances, have been male.
    And, so, the EEOC comes in without a complaint, without 
anybody complaining, without the 300-day rule--that is 
required--being complied with, and files a complaint because 
the ladies were not there. Now, they have hired ladies since 
that time.
    They have to carry the trays on their arms and their 
shoulders. And there is going to be, obviously, some injury to 
their spine from doing this. But they are complying. They have 
had to give over their hiring practices to the court.
    And, so, where they used to advertise by word of mouth, 
they now have to spend $125,000 on each application day to 
notify people of the openings that are available. They have had 
fewer than 22 percent people apply, who are female. So, what I 
am saying is that this notification requirement does not stop 
what is happening with this company.
    They have spent over $1 million and 8 years of their time 
with this investigation. They have a solid reputation but it 
has been soiled a great deal by accusations that they are 
guilty of discrimination. The court found Joe's Stone Crab 
guilty of discrimination, even though it is a civil action.
    They have received bad publicity. After the publicity of 
having to notify of hiring practices and everything else, they 
are still going.
    Two other companies I would like to mention are Lily Rubin, 
which is a clothing store. This is not in my statement. This is 
an addition. Lily Rubin is a clothing store that used to be 
nationally recognized.
    The EEOC came in without a complaint and specified that 
they wanted men in the dressing rooms where ladies had been 
before. There had not been any men employees. This company 
fought it and fought it and fought it and finally just gave in 
and went bankrupt.
    There is another company, a Korean company in Chicago that 
had a cleaning business. And it was quite successful. The EEOC 
came in and said, well, you are hiring only Koreans. They are 
all minimum wage people. In their attempt to try to hire and 
comply with all of the EEOC's regulations, they spent $200,000 
in litigation expenses. They could not comply because the work 
force was not there, and they went bankrupt because they could 
not face that issue.
    One last thing that I want to mention is the Attorney 
General for the State of Florida. He is a Democrat. People have 
described him as liberal and/or a moderate liberal. He had a 
situation where the EEOC came in because of a complaint. A 
black female attorney said that the blacks were getting paid 
less and had more conditions put on them than the whites in the 
attorney section of the Attorney General's Office.
    The Attorney General then went in to complete an 
investigation and found that out of all the State agencies they 
were complying more than any of the others with this particular 
practice, but this did not stop the EEOC.
    They continued the process. They continued to say that 
there had been discrimination. Failing, my point is, just 
failing to admit that they were at fault. It is an obsessive 
drive that they seem to have in all of these instances.
    When the EEOC and the Attorney General's office had one of 
their conciliatory hearings, the EEOC refused to send anyone of 
authority. When asked why somebody of stature was not there 
with the clerical person, they said the investigator refused to 
summon a supervisor to the meeting. When a supervisor was 
requested, the EEOC representative stated that the person was 
too busy.
    The Attorney General also asked who else was complaining. 
They said we have had other complaints but we are not going to 
tell you.
    Going back to Joe's Stone Crab, the EEOC walked in without 
anyone complaining. Now the EEOC is holding the complainants in 
secrecy. Florida's Attorney General is now facing these things. 
Here are his comments.
    His name is Robert Butterfield. He has characterized the 
EEOC investigation, investigative and conciliation process, as 
replete with ``professional sloppiness, inaccuracies, improper 
application of the law, and an absence of anything resembling 
internal oversight.''
    Now, I am saying that obviously the backlog, if any exists, 
with the EEOC is not large enough. This must be the cause of 
them filling this idleness with all this bedevilment.
    I have been a small business person. I know what it is like 
to have the threat of an EEOC investigation. But the unreason- 
ableness of this is unbelievable.
    Joe's Stone Crab is now on appeal. They lost their case and 
they are in the process of appealing it.
    Somewhere, somehow there needs to be a legislative relief 
given to these people faced with this, but there is no way to 
do it. I am just saying somebody needs to take a hold of this, 
look at the EEOC, and say all of these things are going to be 
grandfathered. We cannot un-bankrupt these people and we cannot 
give them back their money because that would be something that 
would be untenable.
    Again, I just wanted to emphasize how important it is that 
the EEOC get off of this tangent. The work that they do is 
wonderful. As a small business person, I really appreciated the 
ability to have an administrative hearing for the complaints 
that we had rather than going straight to court. They are doing 
great things, but somewhere in this thing they are just off on 
a tangent.
    I hope that you, this committee, would consider trying to 
control that tangent so we do not have these abusive, 
terroristic practices placed on our small businesses of this 
nation.
    Mr. Rogers. What is it about these cases that you have 
mentioned that make them out of the ordinary; that, as you say, 
that the EEOC was acting in an abusive fashion?
    What is it about these that make them different from the 
run of the mill charge?
    Mr. Dickey. Well, I think overall they show a lack of 
objectivity. They seem to be targeting certain places. In these 
three instances, the EEOC has gone into these businesses. When 
a reasonable explanation has been given for why there are not 
female employees, why there are not males in the dressing room, 
and why there are not anything other than Koreans in a Korean 
neighborhood, they have ignored them and kept on going. These 
businesses have met these inquiries with worthy explanations.
    They are saying you have to hire people not in your 
neighborhood, and you have to hire Chinese, Blacks, and Whites 
and everything else all across the city instead of those people 
close to your business.
    Mr. Chairman, in one instance, the EEOC found that 22 
percent of Joe's Stone Crab employees were female. When they 
found out that this was the statistical figure within that 
locality, they broadened the statistical base to 32 percent of 
hires in the whole county were female.
    In other words, they did not stay still. They do not have 
enough to do. This is what I am saying. They are creating. They 
are activists. They are creating these things, and it is 
costing our economy.
    Mr. Rogers. Well, they claim that they have an enormous 
backlog.
    Mr. Dickey. Well, I can see why. They are creating it. They 
are spending all of this time on these cases and what is their 
goal--excuse me for interrupting you. They are bankrupting 
people. Is this what they do? Do they mark up on the wall 
another one down, another one down, another one down?
    This may be something that is worthy from their standpoint. 
If it is, it should not be condoned. It should not be sponsored 
by us.
    Mr. Rogers. What I will do is request the EEOC to respond 
to your charges on these three individual cases, respond to 
this Subcommittee about the allegations that you have made and 
ask for a full report.
    Now, are all three of the cases on appeal?
    Mr. Dickey. There are four.
    Mr. Rogers. Four?
    Mr. Dickey. No. The two bankrupt cases are gone. The 
Attorney General is still pending. He says he is going to go to 
court rather than put up with the EEOC, and the other is on 
appeal. Joe's Stone Crab is on appeal.
    Mr. Rogers. Administrative appeal?
    Mr. Dickey. No, sir.
    Mr. Rogers. Into the Federal Court?
    Mr. Dickey. Federal Court.
    Mr. Rogers. So, they have sued to enjoin EEOC or whatever.
    Mr. Dickey. No. It is the other way around. The EEOC went 
voluntarily into court with a cross-appeal.
    Mr. Rogers. I see.
    Mr. Dickey. And they have met them. They have gone through 
all the administrative deals and now they are doing it.
    Mr. Rogers. Why did the EEOC go to court? I thought they 
won administratively, obviously, did they not?
    Mr. Dickey. It says here that a complaint was filed by the 
EEOC. Now, I do not know at what level. Do you want me to--I 
will find that out.
    Mr. Rogers. If you would. And what I----
    Mr. Dickey. And the Attorney General, as I told you, there 
really are four circumstances. And if you----
    Mr. Rogers. What I would like for you to do is, if you can, 
is summarize for us each of those four cases.
    Mr. Dickey. Okay.
    Mr. Rogers. The ones that you want us to check.
    Mr. Dickey. All right.
    Mr. Rogers. And what I would be interested in the summary 
including a very concise part that backs up your allegation 
that they were acting in an abusive or over-zealous fashion or 
targeting a business for extinction or whatever.
    So, that we have something specific we can ask them to 
respond to.
    Mr. Dickey. Okay. I will do that.
    Mr. Serrano. Mr. Chairman, if I may?
    I certainly, Mr. Dickey, understand your concern about 
these complaints and I think the Chairman's request is a good 
one. I would note, however, that I think that the deeper 
question would be if it is a pattern at the EEOC--because as I 
can see the Joe's Stone Crab situation starts in April of 1992, 
so, it precedes this administration and that is something that 
we should ask from EEOC--if this is a just a pattern of 
behavior.
    I must say, however, that while you single these cases out 
and certainly I repeat that we will take a look at them, there 
are some of us who think EEOC, in general, is a very necessary 
agency. And I hope that in looking at these particular cases we 
do not smear the whole agency with this.
    Mr. Dickey. I understand and I am telling you that it was 
such a benefit. I had 97 employees in and out in my restaurant 
businesses and it was so good to go to the EEOC. I lost some of 
them but we could get to them quickly. And I am in support of 
the EEOC, I do not want to marginalize what they are doing in 
that respect.
    It is just that, Mr. Serrano, that they are going out and 
no one is doing anything. In some of these things, the EEOC 
ignored the rules such as who has complained and what about the 
300-day rule? They just went right past it. There is a 300-day 
rule that you have to abide by that is in this statement. They 
shot right by it.
    The Attorney General proved that his agency had more than 
anybody else and they just kept on going. This is in Florida.
    Mr. Rogers. If you would summarize for us, we would 
appreciate it.
    Mr. Dickey. Thank you, sir.
    Mr. Rogers. Thank you, Mr. Dickey.
    Mr. Dickey. Thank you for your time.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. LoBiondo.
    We will include your statement in the record and we would 
welcome your summary.
                              ----------                              

                                          Thursday, April 15, 1999.

        COPS PROGRAM AND THE OYSTER INDUSTRY IN THE DELAWARE BAY


                                WITNESS

HON. FRANK A. LOBIONDO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I intend to do that. I want to thank you very much, Mr. 
Chairman, and Mr. Serrano.
    There are two topics that I wanted to discuss this morning, 
Mr. Chairman. First, I would like to take the opportunity to 
thank you and the committee for the work last year in 
generously funding the Bulletproof Vest Partnership Grant 
Program at its full authorization level of $25 million: 
Certainly and clearly a plan that will save the lives of police 
officers.
    And I respectfully request that you continue to support 
this critically necessary program by maintaining a level 
funding of $25 million which is also incidentally the 
administration's request for this Bulletproof Vest initiative.
    The second issue, Mr. Chairman, that I wanted to bring to 
your attention and ask you about is your assistance with the 
Coastal Zone Management Report language, that in 1997, was to 
have the effect of bringing much needed funding and resources 
to the oyster industry in Southern New Jersey.
    Now, by way of just a brief background, the area in my 
district in Southern New Jersey where the oyster industry 
actually operates is one of the poorest areas in the State and 
probably in the nation. The unemployment rate is at terrible 
double digit levels. There are transportation problems, there 
are all kinds of problems trying to find and create jobs.
    The oyster industry in that part of the State at one point 
was the capital of the world for oysters. It was decimated in 
the middle of the century by disease and they have been 
struggling to find a way to come back with this.
    In 1996, there were 307,000 bushels of oysters harvested 
from the Delaware Bay. That is an incredible number, a big 
number, a positive number, an uptake, which translates to 
roughly $37 million boost for the local economy.
    This is dramatic because few people expected edible oysters 
to be harvested from the Delaware Bay again. But improved 
planning, and cultivation techniques that were matched with 
Federal, State and local efforts to clean the waters of the Bay 
resulted in this big potential windfall for the part of 
Southern New Jersey that has been very economically distressed 
because of the loss of revenue, as I explained a few minutes 
ago.
    While giant steps have been taken in the last three years, 
the industry is at a turning point. An influx of Coastal Zone 
Management funding will be needed to enhance the development of 
the oyster harvesting. This funding will translate into much 
needed jobs and increased economic activity in the region while 
this industry is reborn.
    And while the efforts of local harvesters have begun to 
bear fruit I am unhappy, very unhappy with the lack of 
cooperation given by the State's coastal managers. As you may 
recall, the Subcommittee included language in fiscal year 1998 
CJS Conference Report which encouraged New Jersey's coastal 
managers to use Federal funding where possible to assist in 
oyster shell planting efforts.
    Unfortunately, the language was totally and completely 
ignored. The fiscal year 1998 report language was designed to 
bring the coastal managers' attention to this very important 
project: Moving under-utilized seed stock from upper reefs to 
lower reefs and when completed allow oysters to rapidly grow to 
market size.
    Now, Mr. Chairman, last summer I took a tour, scenic tour 
of the Morris River and had the opportunity to see and to 
sample Delaware Bay oysters and I strongly believe that the 
size and health of these shellfish are harbingers of the oyster 
industry's revival in Southern New Jersey and the translation 
into many jobs that will result once again.
    And, incidentally, many of these jobs are in the minority 
community.
    Mr. Chairman, let me point out a crucial fact related to 
the oyster industry. Every dollar spent on oyster harvesting 
activities produces $7 in economic growth. It is a tremendous 
return on investment.
    This revival and associated economic growth potential 
cannot happen without the involvement of the State's coastal 
managers.
    I am not here today to ask for earmark funding. Again, I 
repeat, I am not asking for earmark funding in coastal zone 
management section of CJS. However, I would respectfully 
request the Subcommittee's assistance in helping me or in 
finding a creative solution that will clearly demonstrate the 
intent of Congress and which will bring much needed funding to 
an industry that could revitalize local economies in my 
district.
    They, obviously, have ignored the efforts that we have made 
in the past and I am hopeful with the creative thinking on this 
Subcommittee that we can find some language that can be 
incorporated which will clearly demonstrate the intent that we 
have and move them forward in the right direction which will be 
a win-win situation.
    Mr. Chairman, I thank you very much for the opportunity to 
come before the Subcommittee today and I look forward to 
working with you in the future.
    Mr. Rogers. Well, the gentleman has been persistent and 
effective in trying to help his folks there. As you know, the 
coastal zone management monies which we funded, I think rather 
liberally, is a grant program, a formula grant program to 
States. We give them the money and they decide what they do 
with it.
    And that is by law and we cannot change that at this point. 
And, as you asked in 1997 and 1998, we did put report language 
in encouraging the New Jersey people to pay attention to this 
problem and they ignored it.
    But what we can do is have your staff and the Committee 
staff confer and we will see if there is some way creatively 
that we can help within the law.
    Mr. LoBiondo. Okay. I appreciate that, Mr. Chairman.
    Mr. Rogers. But the gentleman makes a very strong case and 
I want to thank you for your initial sponsorship of the 
Bulletproof Vest Partnership Grant Program which is working 
wonderfully. We funded it fully last year and expect to 
continue that.
    Mr. LoBiondo. That would not have happened without your 
help, Mr. Chairman.
    Thank you.
    Mr. Rogers. It would not have happened without you 
introducing the bill.
    Thank you.
    Mr. LoBiondo. Thank you.
    Mr. Serrano, thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Roemer.
    We will put your statement in the record, and we invite you 
to summarize within our 5-minute rule.
                              ----------                              

                                          Thursday, April 15, 1999.

                 U.S. ADVISORY COMMISSION ON DIPLOMACY


                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Roemer. Thank you, Mr. Chairman.
    It is a pleasure to be with you today. I appreciate your 
help and Mr. Serrano's help on this issue and a host of other 
issues that I have come here before to appeal for your common 
sense and your wisdom.
    Today, Mr. Chairman, I am here to testify about an issue of 
great importance to U.S. public diplomacy. I want to talk about 
a decision made last year in conference to terminate the U.S. 
Advisory Commission on Public Diplomacy, an important oversight 
body of the U.S. Information Agency.
    Last year's State Department consolidation was a smart 
reinvention of our foreign policy programs. I applaud this 
commission's role in that process. However, this consolidation 
abolished the only citizen's advisory body for public 
diplomacy, the U.S. Advisory Commission on Public Diplomacy on 
October 1, 1999, when USIA ceases to exist.
    The consolidation retained the Advisory Commission to the 
Arms Control and Disarmament Agency but it eliminated the 
Advisory Commission to USIA, a much larger agency.
    There was no vote on the Commission's continuance and I do 
not believe that there was fair consideration of its future and 
its value.
    The Commission, Mr. Chairman as you know, is bipartisan and 
Presidentially appointed, with the consent of the Senate and 
its membership has included distinguished Americans like Father 
Theodore Hesburgh, George Gallup, William F. Buckley, Frank 
Stanton and James Michener who have all served without 
compensation.
    Currently, the commission has a budget of less than 
$500,000 and it has returned--and I know you will like this, 
Mr. Chairman--has returned an average of $75,000 to the 
taxpayers in each of the last three years.
    In this age of information and democracy, of globalized 
free markets and the Internet foreign publics are more 
important than ever before. As we are developing a new 
diplomacy for the 21st century the commission is of even 
greater constructive value to the Congress and the 
administration.
    If I could, Mr. Chairman, and Mr. Serrano, I would like to 
cite an article from the Boston Globe just recently written in 
February of 1999 and I quote. ``In the past year, three 
separate groups of experts in Washington have issued studies 
calling for an overhaul of America's diplomatic corps: The 
Henry L. Stimson Center, the Center for Strategic And 
International Studies, and the U.S. Advisory Commission on 
Public Diplomacy which was created by Congress. The experts 
agreed on the need for a new diplomacy in which the American 
ambassadors around the world make their case not just to 
foreign ministers but to civic groups, to Chambers of Commerce, 
to college audiences. They have to sell American products and 
sell American policy.''
    Before USIA was created when the overseas information and 
cultural programs were still located in the State Department, 
Congress decided in the Smith-Mundt Act that distinguished 
Americans be asked to provide a great constructive value to the 
Secretary of State and the Congress in the best development of 
public relations programs in the foreign relations of the 
United States.
    For 50 years the commission and its predecessor bodies 
issued several intelligent and thoughtful reports in which 
relevant public policy issues have been examined and 
recommendations made. With the integration of USIA into the 
State Department a citizens' board which represents the public 
interest and provides policy makers with responsible oversight 
on public diplomacy, strategic priorities and program 
effectiveness is needed now more than ever.
    I encourage, Mr. Chairman, this committee to support a 
legislative provision repealing the abolition of this 
Commission. Mr. Smith, in the authorizing committee has 
incorporated our language into his recently drafted bill and I 
thank him for his support.
    In the 1980s, the commission broke new ground when it 
released a special report, ``Terrorism and Security: The 
Challenge for Public Diplomacy'' which recommended ways to make 
the difficult balance between the need to protect our diplomats 
and overseas installations and the need to reach out to our 
publics.
    It has done so again in the 1990s by focusing on a new 
diplomacy for the new information age. Our country enjoys a 
considerable edge in public diplomacy both in reaching publics 
through advanced technology and in our message of democracy, 
human rights, free markets, and ethnic and cultural diversity. 
We should use that edge, Mr. Chairman. In the post-Cold War era 
of instant global journalism and people power, foreign public 
opinion is critical to the success of American foreign policy 
initiatives.
    Mr. Chairman, in conclusion, the new State Department we 
are creating must be a responsive and flexible diplomatic 
institution that can deal as effectively with foreign publics 
as with foreign governments. We need the insight and experience 
of the advisory commission to make this transition successful 
and to achieve our foreign policy goals.
    In conclusion, Mr. Chairman, I would just say I recently 
finished a book by Paul Nagel on John Quincy Adams. John Quincy 
Adams, as you know, was the son of a President, was the 
Secretary of State to James Monroe and developed the Monroe 
Doctrine. He traveled extensively through Europe when he was 
appointed to three commissions over there at the Hague, Russia 
and England. And he sought out not just the ambassador to that 
country but the public and tried to influence public opinion.
    And that, I think, is the foundation I think that we are 
looking at in, as you tried to reconstruct and reform and 
modify the State Department--and I applaud you for doing that--
we also need to construct a new policy, a new way of 
communicating with the foreign publics in other countries. And 
this advisory committee does it inexpensively, it does it 
without compensating the Republican and Democratic members, and 
for less than $500,000 it has issued some very, very important 
reports to our State Department and other bodies to help us do 
a better job overseas.
    Mr. Rogers. Well, the gentleman is a very effective 
spokesman for his cause. You have done a very good job of 
stating the case. John Quincy Adams had the great wisdom to 
appoint as his Secretary of State probably the greatest 
Kentuckian ever to serve in the U.S. Congress.
    Mr. Roemer. I should have mentioned that in my statement, 
Mr. Chairman. [Laughter.]
    Mr. Rogers. Henry Clay, the greatest Kentuckian ever to sit 
up here. But you make a very strong case for your cause.
    Mr. Serrano?
    Mr. Serrano. Yes, Mr. Chairman. As you know, I have an 
interest in this issue. In fact, yesterday, I questioned the 
State Department management team about their decision to 
abolish it, and they were pretty strong in their belief that 
this item was better served by the public sector. In fact, we 
had an exchange where I found out that they support a 
Commission on Salmon, a Government Commission on Salmon, but 
they do not want Government involvement in this issue. They 
want the public sector. I could not figure that out.
    But I am very supportive of it, and I think you make an 
excellent argument. The kind of budgets we have, less than 
$500,000, returning $75,000 a year. So they are obviously not 
trying to take any money from us, and I would hope that I can 
convince all of us that this Commission should stay in place.
    And I think the Chairman is the greatest Kentuckian to ever 
serve in this House. [Laughter.]
    Mr. Roemer. Henry Clay also helped John Quincy Adams get 
elected when the election was thrown in the House of 
Representatives. So he did many things to help----
    Mr. Rogers. Andrew Jackson did not take to that very 
kindly, though. [Laughter.]
    Mr. Roemer. No, he sure did not. But he eventually came 
back and won two terms.
    Mr. Rogers. Thank you.
    Mr. Roemer. Thank you very much, Mr. Chairman. I look 
forward to working with you.
    Mr. Rogers. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Stupak.
    We will make your statement a part of the record, but we 
would like you to summarize it briefly for us.
                              ----------                              

                                          Thursday, April 15, 1999.

  GREAT LAKES FISHERY COMMISSION, GREAT LAKES ENVIRONMENTAL RESEARCH 
LABORATORY, COPS PROGRAM, BYRNE FORMULA GRANT PROGRAM, VIOLENCE AGAINST 
          WOMEN ACT, UPPER PENINSULA OF MICHIGAN FEDERAL JUDGE


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman, Mr. Serrano, and Ms. 
Roybal-Allard. Thanks for having me here.
    Mr. Chairman, as you know, my district borders three of the 
five Great Lakes, so I would like to spend a little time on 
some Great Lakes' issues.
    First of all, the sea lamprey. This committee has always 
been great in trying to help us fund the sea lamprey. Once 
again, we have a $1 million line in the budget. To do the job 
effectively on the sea lamprey control, we need $5.8 million. 
Michigan has agreed to put up $3 million over the next five 
years. We would ask if the committee could maybe boost that 
amount a little bit. It is a five-year program. We need $5.8. 
We are at about $4 million right now, with Michigan putting in 
just over half the money. We had hoped that we could match 
that.
    Along those same lines, the National Sea Grant College and 
the Great Lakes Environmental Research Lab actually is cut in 
the President's proposed budget by $740,000. It does not sound 
like a lot of money, but what that would probably do is wipe 
out trying to control the zebra mussels in the Great Lakes. 
Zebra mussels are now gone basically all over this country. As 
you know, one zebra mussel can multiply a million eggs a year. 
They are clogging all of our water intake pipes which is a huge 
expense not just to our municipalities, but also to many of the 
utilities along the Great Lakes, and I am sure the Mississippi 
and even the Gulf coast now. So we would like to see the 
funding restored for the Great Lakes Research Laboratory.
    Mr. Chairman, you will see in the proposed budget, also, 
and I am sure you are aware, the International Joint Commission 
actually got an increase in their budget line, and that 
increase was as a result of the problems we are facing 
throughout North America, in the export of water. The 
International Joint Commission is now looking at the export or 
diversion of water. It is an issue that I have been advocating 
for some time, and what has happened, we have a number of--
Canada issued a permit to allow the sale of Great Lakes water 
to a Canadian company to ship it to Asia. We were successful in 
blocking that idea. Up in Sitka, Alaska, there is a Canadian 
company that has a license to ship U.S. water to Asia. They are 
actually doing it right now in bottles, but they want to do it 
in bulk tankers, and you also have it on the East Coast of 
Canada.
    So the International Joint Commission, which was set up to 
mediate, if you will, boundary disputes of our waters under the 
1909 Boundary Water Treaty, is actually studying this problem. 
So the increased funding is for them so they can study and 
determine what will the future be in this country about 
exporting fresh water.
    As you know, North America has 85 percent of the world's 
fresh water. It is right now, according to the World Bank, the 
second or third most sought after commodity in the world, and 
by 2010 it will be the number one commodity in the world. This 
country and Canada has to get some policies together to 
regulate the sale or diversion of water, whether it be the 
Great Lakes or whether it be the East Coast or the Alaskan 
glacial waters.
    Last, but not least, Mr. Chairman, the COPS program and law 
enforcement--as you know, my role in law enforcement here in 
the U.S. Congress.
    It was interesting, yesterday, we were at a briefing by the 
International Association of Chiefs of Police and, to that, 
this committee has jurisdiction funding over the COPS program. 
They would like to see that continue and the program be fully 
funded at $1.275 billion in the year 2000. But they also made a 
strong pitch to continue the Byrne Grant Program. And I know 
this committee, and you, Mr. Chairman, have been very 
supportive of that program in the past to allow local units of 
Government to use monies that come from the Federal Government, 
whether it is to run their jail operation or to do a multi-
jurisdiction drug task force or DARE program, whatever way 
States would like to use it. And we would like to see that 
funded at last year's level of $550 million.
    So, Mr. Chairman, you can see in the Great Lakes there has 
been some cutting in the programs which will probably hurt our 
zebra mussel program and other aquatic nuisances that has 
invaded our areas. In the COPS program and law enforcement, we 
are asking for continued funding, and we have the new wrinkle 
with the fresh water and the International Joint Commission, 
and we would ask that the committee look favorably upon putting 
funding in there.
    On the last page of my testimony, I mention, because it is 
not authorized yet, but I am sure in the future I will be back 
before this committee, hopefully, to seek appropriations for a 
judge up in the Upper Peninsula of Michigan. The nearest 
Federal judge is in Grand Rapids, which is some 400 miles away. 
The Upper Peninsula of Michigan has most of the Federal land in 
Michigan. And the issues with crossing between the Canadian 
border, and Federal lands and other problems up there, even the 
judges, we have magistrates up there, we have everything but a 
judge. In order for a judge to come hear a case, they have to 
go 400 miles. Or if the case is heard in Grand Rapids, then the 
people from Upper Peninsula have to go 400 miles. We have 
everything there but a judge. So we are going to ask the 
authorizing committees to help us out there, and I just put it 
on your radar screen for future consideration.
    Mr. Rogers. Of course, we have nothing to do with that, 
except pay them.
    Mr. Stupak. Pay them, exactly.
    Mr. Rogers. Well, the gentleman makes a very strong case 
for all of the items that he has mentioned. The 
Administration's new COPS-II program, which they are proposing, 
is unauthorized, of course, and essentially they propose to 
fund the renewal of the COPS program by eliminating the local 
Law Enforcement Block Grant Program, which the Congress passed 
over their objections. But they propose to take that money and 
fund a new COPS-II program. That will not happen.
    Mr. Stupak. I agree.
    Mr. Rogers. They have also proposed to take the Juvenile 
Accountability Block Grant. That will not happen. And they 
would make a drastic reduction in the State Prison Grant 
Program, and I do not think California would stand for that.
    It is also proposed to be funded at the expense of program 
increases in Federal law enforcement needs, such as the border 
patrol agents. There is no money, by the way, in the 
President's budget for border patrol increases, and that will 
not stand. And they propose to cut the Byrne Grant Program, and 
that will not happen.
    So I do not know where we are going to find the money for 
COPS-II because we are going to be short of money in the first 
place.
    And in the second place, we are not going to cut those 
necessary programs to make room for COPS-II. As much as the 
COPS program has done in helping communities hire police, we 
predicted, at the time when it started, that communities would 
not be able to afford this gradually increasing share of that 
salary that they would have to pay; until now, it is 100 
percent. And a lot of the communities are saying, ``We cannot 
afford this. Our budget will not stand it, so we are having to 
lay them off.'' We said so at the time, and that is the reason 
we created the Local Law Enforcement Block Grant, which would 
pay 100 percent of that salary for as long as the community 
wanted to apply for it, and that was why we did that.
    Now, on the GLERL, Great Lakes Research, the President's 
budget cuts it, and that is nothing new. They do it every year, 
and we always restore the money.
    Mr. Stupak. Right. And you have been great to us on that.
    Mr. Rogers. And I see no reason why we cannot. How would 
anybody sell water from Lake Superior to Asia? How would you 
get it there?
    Mr. Stupak. Ship it; bulk ship.
    Mr. Rogers. Bulk ship?
    Mr. Stupak. Yes. It is a quite interesting concept. Right 
now, when you pay for a gallon of water, I mean, in 
supermarkets, it costs more than a gallon of gas. And there is 
a great need for fresh water. Most water in the world, of 
course, is not fresh water. And 80 percent of all water 
consumed in the world is for agricultural purposes, and every 
21 years, our world population doubles.
    Therefore, you can see a demand for greater food 
production. And to do that you need water, and you need fresh 
water, and we have it all here. A couple of interesting 
entrepreneurs have brought that forward as a way of doing it, 
and it is economically feasible to ship from, let us say, Lake 
Superior to Alaska. They had the contract. They had it ready to 
go. The Province of Ontario actually issued a permit. We found 
out about it, got with some Canadian counterparts, passed our 
resolution last fall asking the President and the Senate to 
start addressing this issue. They referred it to IJC. That is 
how it started. Of course, IJC is Canada and U.S.
    And then Canada passed a moratorium, no more shipments or 
permits will be issued until the Canadian Government has a 
chance to address it. In the meantime, we find Global 
Corporation, which is out of Canada--I want to say Vancouver--
has this permit from Sitka, Alaska. What they are doing right 
now is bottled water they are shipping to Asia right now in 
containers; bottled containers, plastic, things like that. But 
they are building a bottling plant in Asia, China, and they 
envision, according to their Web page, shipping 445 tanker 
loads a year from Sitka, Alaska, to Asia for water distribution 
and water, and they want it in bulk, and they will use bulk 
ships to do it.
    Mr. Rogers. Where would Sitka get the water, from Superior?
    Mr. Stupak. Sitka is getting it right from a glacier pack 
just on the north end of the town. Sitka was an international 
shipping port. I believe it was timber and paper. That paper 
mill shut down, and this is the new lifeline for this community 
which is water.
    Now, our fear is this: When the first tanker of bulk water 
goes, then do you trigger Section 11 under NAFTA, North America 
Free Trade Agreement, and then all of our fresh water in the 
United States and Canada becomes a commodity underneath NAFTA, 
and we have a Pandora's box because there are no policies or 
procedures or regulations of how we are even going to do this. 
How much can we ship without hurting our environment, our 
aquaculture in the Great Lakes and all parts of this country 
and Canada.
    And the issues, as we get into it, have become more and 
more complex, and we need a little time, and we are probably 
going to introduce another piece of legislation asking for a 
moratorium until we have some policy in place between our two 
countries, and I would, again, urge the administration and the 
Senate to seriously address this issue because it is at our 
doorstep now, and entrepreneurs are doing it.
    And my fear is, once the first drop of water in bulk 
container is shipped, we trigger NAFTA. I raised the issue in 
1993, Mr. Chairman. Most people thought I had water on the 
brain, but now they understand that maybe my worst fears are 
true, and so we have got a real problem here that would have to 
be addressed.
    Mr. Rogers. How much of an increase are you asking in the 
IJC's budget for that purpose?
    Mr. Stupak. Mr. Chairman, off the top of my head, it was I 
believe they had an increase of about a half a million, like 
$500,000, to finish this study. They have to have their 
preliminary study done by August or early September, and then 
six months later they are going to have a final draft. I was 
with some of the IJC last night, because it was their 90th 
birthday, at the State Department, and they were telling me 
that, while they made no decisions, they do not know how they 
would--they urge us to get the legislative branch geared up 
here because they are not a legislative body, they can only 
make recommendations. It is going to have to be a legislative 
branch to do it.
    Mr. Rogers. What if a company started selling bottled 
water, retailing bottled water out of Superior? Have you got a 
problem with that?
    Mr. Stupak. I do not have a problem with that, as long as 
it is going in bottles.
    Mr. Rogers. But not a tanker or a wholesale----
    Mr. Stupak. Not wholesale, bulk sale of Great Lakes water. 
In order for anyone to sell or divert water out of the Great 
Lakes, the 1985 Great Lakes charter requires each governor and 
each provincial head--because we share the Great Lakes with 
Canada--to sign-off and to approve the plan. In the past, when 
people have suggested we divert some of the water out of the 
Great Lakes and maybe, let us say, to the southwestern part of 
the United States, it has always been vetoed by the governors. 
We are pretty protective of the Great Lakes.
    But this water issue is more than just a Great Lakes issue. 
It is a North America issue that we have to start to address. 
So if anyone tried to sell it out of the Great Lakes for 
commercial like that, I am sure there would probably be a veto 
by one of the governors, at least, of the nine Great Lake 
States.
    Mr. Rogers. We will take your request into consideration. 
Thank you very much.
    Mr. Stupak. Thank you.
    Mr. Rogers. Thanks for your work on the COPS program and 
the law enforcement area.
    Mr. Stupak. Thank you. Thanks for your help.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Deal.
                              ----------                              

                                          Thursday, April 15, 1999.

              INS BUDGET AND ILLEGAL IMMIGRATION CONCERNS


                                WITNESS

HON. NATHAN DEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
    Mr. Deal. Thank you, Mr. Chairman.
    I would like to address the Subcommittee--and thank you for 
allowing me to be with you--on the issue of the budget of the 
INS for internal enforcement.
    My district has become an area that has a substantial 
internal immigration enforcement problem. And as a result of 
some changes that have been made internally in the INS, it 
appears that they have made a decision to de-emphasize internal 
enforcement and concentrate on border enforcement as their 
exclusive effort to fight illegal immigration--unbelievable to 
many people of my district. And North Georgia has become a 
haven for illegal immigration. It is probably the number one 
social issue, I would say, that is facing my district.
    We have been told by Tom Fischer, who is the district 
director for the Atlanta region of INS, which has 
responsibility for my area, that the region's law enforcement 
budget for nonmandatory provisions, which includes criminal 
aliens, was cut by 50 percent in 1999 from the fiscal year 1998 
levels. As a result of that reduction, it has affected such 
things as they have just restricted vehicle use.
    My district lies some 50 to 60 to 70 miles north of Atlanta 
itself. They have delayed or canceled law enforcement 
agreements with task forces in the two major cities in my 
district. They have no operational funds to cover the Quick 
Response Teams, which I understand were congressionally 
mandated. They have delayed expansions of the county jail 
initiatives under the National Criminal Aliens Removal Program. 
They have gone to the point that they simply tell us that they 
don't have the funds to even remove criminal aliens who have 
been convicted of aggravated felonies, and that has created a 
very serious problem with law enforcement in my district and 
with the community as a whole.
    As the Chairman alluded to just a minute ago, it is my 
understanding that the President's budget for this year does 
not include the funding for the thousand border patrol agents, 
which I understood was congressionally required, and I assume 
this subcommittee will probably be addressing that.
    But I do not think that we can expect border enforcement to 
be the only remedy for dealing with this problem. And the 
effort to back off of internal enforcement I think is a 
mistake. The Atlanta Division of INS says that they need an 
additional $252,000 just to fulfill their minimal level of 
responsibility for just their region. I do not know what that 
translates into across the country for just their region. I do 
not know what that translates into across the country, but I 
wish to bring that to the subcommittee's attention. I do think 
that some direction should be given by the House and Congress 
as a whole to the INS with regard to not retreating from 
internal enforcement.
    Mr. Rogers. Well, the gentleman makes a strong case. He has 
talked to me privately for some time about these problems. I 
wish I could tell you that we had a good answer.
    I am trying to abolish the INS. We fund them here, but they 
are so inept that I have tried to abolish the whole agency and 
reassign their chores to other agencies; law enforcement to the 
Justice Department, and labor to the Labor Department, and the 
visas and that type of thing to the State Department because 
this agency is absolutely inept. It has been this way since I 
came on this Subcommittee now 17 years ago, and it is the most 
inept Federal agency that exists.
    Money is not the problem. I mean, we have quadrupled their 
budget in the last six years or so. We have just poured money 
at them saying maybe that is the problem. But it just goes down 
a rat hole and nothing ever happens. It is unresponsive. It is 
disorganized. It is a nonpartisan, bipartisan problem. It is 
not just a problem under the Clinton Administration. It was a 
bigger problem under the Bush and Reagan Administrations. So it 
is not that. They are an island unto themselves, and you cannot 
regulate them. It is incredible. I have never seen anything 
quite like it in my experience.
    Mr. Deal. I support the Chairman's efforts in that regard 
because I think the diversity of the responsibilities that is 
assigned to the agency, they do make choices as to which 
priority they give for a particular year. And internal 
enforcement and the enforcement arm, as a whole, I think has 
been de-emphasized.
    Mr. Rogers. Exactly. Now, as a result of problems that you 
brought to our attention and others, last year, we, in our 
bill, mandated--we created a Quick Response Team in each State 
to respond to local law enforcement officers who would call 
INS's hotline and not get an answer for hours and hours and 
hours. Meanwhile, they had arrested or stopped some illegal 
aliens in their district and did not know what to do with them.
    And so we created these Quick Response Teams, as a result 
of the 1999 Conference Report, in 11 States for interior 
enforcement--11 interior States--and they are in place right 
now. In Georgia, you have three; in Dalton, Albany and 
Savannah.
    Mr. Deal. But Dalton being in my district they are now 
saying they do not have funds to operate.
    Mr. Rogers. And you know why? Because the Agency, through 
another case of ineptitude, overhired in other areas and had to 
take the money out of this account. I mean, they are absolutely 
incredibly unresponsive. Do not get me started on this. 
[Laughter.]
    And we authorized a thousand more border patrol agents for 
the fiscal years 1997 through 2001. They come in with a request 
in their budget, not a single dollar for new border patrol 
agents for 2000.
    Mr. Serrano.
    Mr. Serrano. Mr. Chairman, I find myself two days in a row 
agreeing with you, and that is beginning to scare me a little 
bit. [Laughter.]
    Mr. Rogers. It scares me even more. [Laughter.]
    Mr. Serrano. There is no love from this gentleman for the 
INS. In fact, I have felt there is something inherently wrong 
with an agency that both tracks down people, at times in a very 
mean way, and then tries to make out of them good American 
citizens at another time. There seems to be a conflict of 
behavior. And we understand that Georgia has become, and many 
people in the North have wondered why Georgia, but it has 
become an area with this situation. You make a strong case, and 
we certainly want to be joining the Chairman in looking at that 
Agency over and over again, seeing which way we can make it 
function better.
    Mr. Rogers. The gentleman makes a good point. One of the 
problems with INS is it has two conflicting responsibilities 
that we gave to it. One is to grant rights and privileges to 
people, such as visas and whatever, and also to prosecute them.
    Mr. Serrano. Kick them out of the country.
    Mr. Rogers. To kick them out and to take enforcement action 
against people.
    Mr. Deal. It is the worst kind of schizophrenia I think 
that we have in a Federal agency.
    Mr. Rogers. It is. And it has created an agency that is 
schizophrenic and collapsing on itself and wasting $4 billion a 
year.
    Well, thank you, Mr. Deal.
    Mr. Deal. Yes, sir. Thank you.
    Mr. Rogers. We are going to work with you to try to help 
all we can.
    Mr. Deal. Thank you very much.
    Mr. Rogers. Realizing we have got an agency that we cannot 
control.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Farr, glad to have you. We will make your 
statement a part of the record, and we will welcome a summary.
                              ----------                              

                                          Thursday, April 15, 1999.

   NATIONAL MARINE SANCTUARIES PROGRAM, NATIONAL UNDERSEAS RESEARCH 
   PROGRAM, THE NATIONAL ESTUARINE RESEARCH RESERVES, SEA CAMP, THE 
            PACIFIC SALMON RECOVERY FUND, YEAR OF THE OCEAN


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Thank you very much, Mr. Chairman, and members, 
Mr. Serrano. I am delighted to be here today. On that last 
comment, I spend, my office is a mini-INS office in Salinas, 
California. I would love to sit down with you some day. I agree 
with your concerns.
    I am here to talk about oceans, and I thought that maybe 
the best way to talk about oceans, for two people that are 
sitting here today, is to remind the Chairman that if it was 
not for the Eastern Kentucky hillsides, both the Ohio and 
Mississippi River drainage system would not be able to provide 
for the wetlands in that Delta area. So I think of you as the 
headwaters for the Mississippi Delta, and you are, in that way, 
related to the oceans.
    And, for Mr. Serrano, you have Orchard Beach in your 
district. In Orchard Beach, you have all of the summer 
concerts, and nature walkways and you provide several 
businesses charter services for fishing and diving trips.
    Mr. Serrano. You have two shots with me. You could hit 
Puerto Rico, too. [Laughter.]
    Mr. Rogers. The gentleman must have been reading Dale 
Carnegie's book.
    Mr. Farr. No, I am just passionate about the subject, and I 
do not know if any other members, although Elton Gallegly is 
here to talk about another point, but I know he is also 
supportive of the National Marine Sanctuaries.
    My list is essentially in the budget, and it is a 
recommendation that you support the increase of $15 million to 
the National Marine Sanctuaries.
    National Marine Sanctuaries is essentially a relatively new 
concept to create national parks and Federal lands in the 
ocean. We do not know where they are going, but I can tell you 
we created one in our district, and just the logo of having it 
attracts people. The irony is somebody comes and says, ``Well, 
how do I get there?'' when they are standing on the beach, and 
you say, ``Well, there it is, right in front of you.''
    Eighty-five percent of the tourist revenues in the United 
States are spent in the coastal areas. In a poll conducted in 
1998 by Melman and this year by USA Today, showed that more 
than half of Americans have observed the conditions of the 
oceans and believe that they are worsening, and they really 
want us to do something about it.
    We are concerned. We all go to restaurants and eat fish. 
The fish stock in the world are overfished. It is essentially 
we just take from. It is not like we do with essentially 
cattle, and chickens and other kinds of meat or hogs that we 
raise them. We do not raise fish, except for limited 
monoculture experiences. We mostly just take from the ocean and 
do not put back. We need to know more about that. Seventy-five 
percent of the endangered and threatened mammals and birds that 
are listed are in coastal habitats. Americans are moving to the 
coastline. They are exploding more than ever. By the year 2010, 
75 percent of the U.S. population will live within 50 miles of 
the coast.
    And yet we, as a Congress, really have not demonstrated a 
commitment to our oceans, as we have to our terrestrial 
resources. We have the National Marine Sanctuary Program 
receives less than 1 percent than we give our national parks. 
Congress has created 378 national parks, 155 national forests 
and only 12 marine sanctuaries. So I am representing one of the 
12, and other members have indicated their support as well in a 
bipartisan fashion.
    But I am also here to speak for the National Undersea 
Research Program, which is requesting $14.5 million, and the 
National Estuarine Research Reserves. Those are essentially the 
wetlands reserves that have become parklike areas in many 
areas. We have created one in California, and I want to invite 
the committee to come out and see some of these resources that 
you are responsible for funding because they are really 
exciting.
    The Estuary and Research Reserve in our area is really big. 
It is almost like a big park. It is a collaboration between the 
Federal Government and the State Government. The State 
Government Fish and Game manages it. All of the universities 
and schools have adopted curriculum to get students out there 
to learn about it.
    We also have the initiative of the Year of the Oceans, 
which many members of Congress went to Lisbon last year to 
participate in that international effort. In the budget is a 
request for $78 million to carry out the initiatives created 
there.
    We have a Sea Camp Program, very little money, $250,000. 
Sea Camp is essentially an idea based around the Space Camp to 
get kids involved in. If we are going to be a--a population is 
going to depend on this sort of eco-zone between the ocean and 
land, the whole future of science, and land management, and 
recreation and tourism is going to be there, and so Sea Camp 
essentially allows the kids to get a taste of that, just like 
they have of Space Camp.
    And, lastly, a program that is very necessary for the 
Pacific Coast States is the Salmon Recovery Fund. We all eat 
Salmon. We do not ranch salmon in America. They ranch it mostly 
a little bit in Canada. They have had a lot of problems with 
their ranching with diseases of the stock. They ranch it in 
Norway.
    We rely on wild salmon. That is how we raise and fish them. 
And so the Recovery Program is essentially an initiative to get 
that wild stock up. And the States of Washington, California 
and Oregon are very involved in that. And the President has 
requested $100 million for that, and I support that.
    I would be glad to answer any questions you might have.
    Mr. Rogers. We appreciate your testimony, Mr. Farr.
    NOAA, overall, has fared very well by our hand here over 
the last four years, despite the budget constraints that we 
have been under. We appropriated $15 million over the last two 
years for that new NOAA lab in Santa Cruz in your district, at 
your urging.
    Mr. Farr. I want you to come out and see it.
    Mr. Rogers. And we want to, and we will.
    In terms of 2000, the items you are requesting funding for 
are areas where NOAA is asking for big increases. The problem 
is that NOAA's budget is really unrealistic because they want a 
$400 million increase, which is a 13-percent increase, and many 
of the increases they ask for are not authorized even. There is 
an overreliance on budget gimmicks, which are not going to 
happen: fees, which the Congress is not going to pass; phony 
trust-fund gimmicks, which are not in our jurisdiction; and the 
like.
    And, number two, we are going to have less money to deal 
with this year than we had last year for anything. So we are 
going to have to really go through that NOAA budget and 
prioritize so as not to do harm.
    On your Sea Camp for elementary school kids, that is 
something that the Sea Grant Program, as you may not know, is 
not authorized to do. Sea Grant is a university research 
program. But what you may want to do is try under either GLOBE 
or the National Science Foundation education programs and go 
for a grant for that Sea Camp idea that you have, which I think 
is a worthy idea.
    So as a way of suggestion, I would, if I were you, maybe go 
after GLOBE or the National Science Foundation, a grant 
program.
    Mr. Farr. Well, we will certainly pursue those. NOAA, as 
you know in your Commerce role, it is about 50 percent or more 
of the Commerce budget. And what my concern is that in that, if 
you look at it, they have been spending a lot more on the space 
side, on the atmosphere side, than they have on the wet side. 
And the wet side is, essentially, the side that is going to 
affect our lives, for all of the reasons that I have outlined. 
So I appreciate that.
    Mr. Rogers. But the big increases, though, that we have 
directed to NOAA, in the last two or three years, have been on 
the wet side, as opposed to the dry side.
    Mr. Farr. That is why I appreciate your interest in this, 
and I look forward to you coming out to the district.
    Mr. Rogers. We look forward to that, too. Thank you, Mr. 
Farr.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Scott. We will make your statement a part 
of the record and hope you can summarize briefly.
                              ----------                              

                                          Thursday, April 15, 1999.

                       JUVENILE JUSTICE PROGRAMS


                                WITNESS

HON. ROBERT ``BOBBY'' C. SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF VIRGINIA
    Mr. Scott. Thank you, Mr. Chairman, Mr. Serrano, members of 
the Subcommittee. Thank you for the opportunity to provide 
testimony before you today.
    I am a member of two subcommittees with juvenile justice 
authority; that is, the Judiciary Committee, and I am the 
ranking Democrat on the Crime Subcommittee, and also Education 
and the Workforce, and I serve on the Early Childhood 
Subcommittee, and we are both dealing with juvenile justice as 
we speak.
    I want to thank you for your funding for juvenile justice 
programs in the past. Unfortunately, your funding that you have 
done in this subcommittee has not been retained in conference, 
and we have not been able to reauthorize the Juvenile Justice 
and Delinquency Prevention Act, although I hope that we will be 
able to do it this year.
    Mr. Chairman, I come to you, today, to make again the case 
for increasing Federal investment in prevention programs and to 
do this by encouraging you to acknowledge that money spent on 
prevention is more valuable in reducing crime than money spent 
on prisons.
    We have not fully funded the money for prevention 
initiatives, such as drug treatment and family resource 
centers, and we could put the money that is now in the Truth-
in-Sentencing Initiative Program into that funding. The reason 
that the Truth-in-Sentencing provision is not as good an idea, 
is because, first of all, all States do not qualify, and many 
States that may qualify do not need the money. Virginia, for 
example, has excess prison beds and is now leasing out prison 
beds. I think the money for Virginia would be much better spent 
in prevention rather than new prison beds.
    Mr. Chairman, we can increase funds for building and 
running Boys' and Girls' Clubs, in public housing and other 
sites for at-risk youth. Boys' and Girls' Clubs have been shown 
to be effective in reducing crime. Drug courts and drug 
prevention activities have been very cost effective in reducing 
crime. And there are a number of other programs that could 
benefit from your support, such as court-appointed special 
advocates, child abuse prevention training, delinquency 
prevention programs, law enforcement, family support, all of 
which will reduce family violence and child abuse and which 
have been shown, in turn, to reduce crime.
    I want to make a special note of a program in my district, 
An Achievable Dream, which offers special opportunities, 
education and direction to youth. It keeps them out of trouble 
in the first place.
    So, Mr. Chairman, and members of the subcommittee, I ask 
you again to demonstrate your resolve in actually reducing 
crime and choosing to make the investment in the areas which 
can, in a cost-effective way, reduce crime, save money and make 
a much better investment in our future.
    Mr. Rogers. Well, we thank the gentleman for his statement.
    This Subcommittee has been on the leading edge on juvenile 
justice monies--crime prevention and programs. And one of the 
biggest boosters of that is also in the room with us at this 
time, Bill McCollum from Florida, who has been the leader on 
this whole subject and has been out front in pushing the 
Congress to put more money into juvenile justice and juvenile 
crime prevention programs.
    In fact, we funded Mr. McCollum's juvenile justice 
programs. It was only when we got to the other body that they 
were lax in their duties, in my opinion, and we had to revert 
back to the existing law because they had not passed their 
authorization.
    Mr. Scott. Mr. Chairman, I think your attention had been 
diverted. I did point out, and thank you for putting the money 
in, and I pointed out that it got lost further along the line 
in the Subcommittee.
    Mr. Rogers. I know that. I did not mean to say that you did 
not.
    What I think you are saying is you would like to take the 
money in the State Prison Grant Program and put it in juvenile 
prevention, which has been the gentleman's advocacy for some 
time, and it is a legitimate argument. It is just that the 
Committee and the Congress has felt that the State Prison Grant 
Program is a worthy program. There are certain States that have 
large numbers of members in this body that I do not think would 
let this happen, even if we wanted to.
    Mr. Scott. I would point out, as a matter of fairness, that 
a lot of States do not qualify, and if we could pass 
authorization so that everybody can use their share as they 
wanted to, I think the Appropriations Committee may not be able 
to legislate that change on an Appropriations bill, but that 
would make it fairer.
    I would point out, Mr. Chairman, that the gentleman from 
Florida and I are working extremely hard right now on trying to 
reauthorize juvenile justice and delinquency prevention 
legislation, and hopefully you will save a significant chunk of 
money to fund that because there is a shocking possibility that 
it might be a bipartisan bill.
    Mr. Rogers. Well, we certainly welcome that. [Laughter.]
    Thank you, Mr. Scott.
    Mr. Scott. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Ms. Morella. Connie Morella.
    We will make your statement a part of the record, and we 
would welcome a brief summary.
                              ----------                              

                                          Thursday, April 15, 1999.

 NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY, NATIONAL OCEANIC AND 
ATMOSPHERIC ADMINISTRATION, VIOLENCE AGAINST WOMEN ACT, LEGAL SERVICES 
                              CORPORATION


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Ms. Morella. Thank you. I am sure that you would, Mr. 
Chairman.
    I am delighted to be here with you and Congressman Serrano 
to testify on behalf of a few issues in your appropriations 
bill. I want to thank you very much for providing me, as you 
usually do, with this opportunity to testify on behalf of some 
funding priorities. And I know the difficult job you have. I 
know you have been here all morning. I know there are people 
who still want to testify.
    Thanks so much for your historic support of the laboratory 
programs on the National Institute of Standards and Technology. 
NIST is the Nation's oldest Federal laboratory. It was 
established in 1901 by Congress, but actually it dates back to 
well before that in the 1800s, when it existed as the Bureau of 
Weights and Measures.
    As part of the Department of Commerce, NIST's mission is to 
promote economic growth by working with industry to develop an 
applied technology, measurements and standards. It is the 
Nation's arbiter of standards, and it enables businesses to 
engage each other in commerce. And particularly in the global 
marketplace, standards and measurements are critically 
important for trade.
    The precise measurements required for establishing 
standards associated with today's increasingly complex 
technologies require the NIST laboratories to maintain the most 
state-of-the-art and sophisticated equipment and the best 
scientists in the world. However, its infrastructure is failing 
and needs repair and replacement.
    NIST currently has a maintenance backlog of over $300 
million. In addition, NIST requires new laboratory space that 
includes a higher level of environmental control of both the 
air quality and vibration than can be achieved by the 
retrofitting of any existing facilities. And so to meet this 
need, NIST must construct an Advanced Measurement Laboratory.
    Mr. Chairman and Congressman Serrano, over the past two 
years, your Appropriations Subcommittee has supported the AML--
you know it quite well--appropriating well over half of the 
total needed to complete the project. And, actually, following 
your lead, the administration has requested enough money to 
complete funding for the AML and begin construction in fiscal 
year 2000. We certainly want to invite all members of this 
subcommittee to be there for the dedication of the building.
    I strongly support beginning construction of the AML this 
year and ask that you include $106.8 million, which is the 
amount necessary that is requested by the administration.
    In addition to construction and maintenance, I strongly 
support fully funding this Scientific and Technical Research 
and Services account, STRS. It not only funds all of NIST's 
laboratory facilities, but also the Baldrige Quality Awards 
program, which has been working. And under the President's 
request, STRS actually declines slightly compared to its base 
funding requirements for fiscal year 2000. So, at a minimum, I 
believe that STRS base funding requirements should be met.
    I also want to reiterate my strong support for the 
appropriation of $10 million in fiscal year 2000 to begin the 
first of a three-year effort to establish the Emergency 
Services Advanced Technology Program. ESAT is an innovative 
initiative that would take existing technologies that have been 
developed for other applications and apply them in a way which 
would benefit, tremendously, fire services communities across 
the Nation. It is a collaborative research and development 
project between the Fire Research Laboratories at NIST and Yale 
Medical School. And it would really help to protect the lives 
of our Nation's 1.2 million fire fighters and local emergency 
responders. I believe it is well worthy of your funding.
    I want to also mention NOAA, the National Oceanic and 
Atmospheric Administration, is a vital component of Commerce. 
It plays an invaluable role in contributing to the Nation's 
economic and environmental health. Its budget request of $2.5 
billion will allow NOAA to build on a number of significant 
accomplishments, and I am pleased that legislation last year 
preserved the NOAA Corps. The legislation provided a specific 
five-year authorization for this valuable national asset, and 
it would assure that a commissioned officer will lead the NOAA 
Corps to the 21st Century.
    Congress has relieved the hiring freeze for NOAA Corps 
officers, allowing a continued service to our Nation. I want to 
thank the subcommittee for doing that.
    NOAA budget requests will allow the organization to perform 
an essential role in a number of important initiatives, 
including the Natural Disaster Reduction Initiative. In the 
2000 fiscal year budget, NOAA requests an increase of $42.1 
million to implement the second phase of the Department's 
strategy to reduce and mitigate against the impacts of extreme 
natural events.
    So the budget requests will support NOAA's continued 
efforts.
    I want to also mention Violence Against Women. You have so 
many things under your jurisdiction in your budget. I want to 
again urge that you continue to fund, and thank you for what 
you have funded, the Violence Against Women Acts at the 
Department of Justice. Enacted in 1994 with strong bipartisan 
support, it is up for reauthorization. It has made a big 
difference. We can cite, within every State and nationally, the 
difference it has made with hotline, shelters. It has improved 
law enforcement on the local level, through STOP grants, to the 
States for training police officers, victims' services, 
implementing pro-arrest policies in cases of domestic violence, 
and it has really helped communities deal with the problems of 
teenage runaways and fighting child abuse.
    Finally, with Legal Services, I have always supported the 
Legal Services Corporation because I think it is important to 
assisting the vulnerable people in our society, and women and 
children certainly are among the most vulnerable, as well as 
the elderly, and they sometimes find themselves in abusive 
situations which they cannot control.So the impact of these 
situations may result in homelessness, loss of necessary 
financial resources, maintenance and health and, ultimately, 
costs society far more fiscal burden.
    It has also been invaluable in allowing impoverished people 
to access the judicial system who might not otherwise have this 
opportunity, and that is the American way. As an example, much 
of the caseload, almost half of the caseload in Maryland, deals 
with divorce, child custody, domestic violence, issues of the 
family.
    So, finally, Mr. Chairman, Congressman Serrano, I really 
appreciate the opportunity to testify before you today, knowing 
the challenge and the burden that you face. I wish you well. I 
look forward to continuing to work with you. Go for it.
    Thank you very much.
    Mr. Rogers. Well, thank the gentlelady for her testimony.
    We, in fact, have a NOAA hearing this afternoon at 2 
o'clock. We will have the NOAA director here to testify about 
his budget request. But their request is unrealistic. They are 
asking for a $400-million increase, 13 percent, at a time when 
we are going to have less money to deal with this year than 
last. So we are going to have to go with NOAA through their 
budget and try to prioritize with them. But you have been one 
of the big boosters of the NOAA budget, and you have been very 
effective in that, and I salute you for that.
    On NIST, as you know, we have been banking the money for 
the new lab there in your district for the last couple of 
years, and we had to do that in spite of the fact the 
Administration was sending us tricked-up budgets, for whatever 
purpose I do not know. But, nevertheless, we did find a way to 
bank money for that very expensive building, which is a $225-
million building.
    The question is, this year, whether or not we are going to 
have enough money to bankroll the final lump sum or whether we 
will have to go two years at it. It is just a function of 
whether or not they give us enough money to do this. So we will 
be working with you on that.
    The Violence Against Women Act, you know it has been this 
Subcommittee that funded the efforts that you led on the floor 
in creating VAWA. And the Administration, in 1998, did not 
request enough money, and so we took the initiative and funded 
Violence Against Women at a much higher rate than the 
Administration requested of us.
    On Legal Services, their request is for $340 million. We 
funded them, this current year, at $300 million. Again, the 
question is where can we find the money.
    Ms. Morella. Mr. Chairman, I am one of your big fans 
because I think you and the Subcommittee have done a terrific 
job.
    NOAA has so often been kind of, I guess, unacknowledged, in 
terms of the kind of work it has done. It has needed more 
advocates. But I know that when you have the hearing, you will 
listen to what they say and question them accordingly because I 
think they perform an excellent function.
    For NIST, you have inspired the Administration to look to 
the importance, and the Secretary of Commerce, the importance 
of the AML building, and I thank you very much for that. The 
concern was spreading it out; maybe that the costs will 
accelerate as a result of that.
    The Violence Against Women Act, I want you to know I have 
traditionally said that do you know that actually that the 
Committee has actually appropriated more than was even 
authorized, and so I applaud you for that. But please know I 
have been stating that throughout the last Congress.
    Mr. Rogers. And the gentle lady has been an inspiration for 
that, and we appreciate your dedication to it.
    Thank you very much for your testimony.
    Ms. Morella. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Gallegly, we will put your statement in the 
record and invite you to make as brief a summary as you would 
care to make because we are running late.
                              ----------                              

                                          Thursday, April 15, 1999.

                      INS PROGRAM FUNDING REQUEST


                                WITNESS

HON. ELTON GALLEGLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Gallegly. Thank you very much, Mr. Chairman. I will 
make my comments brief.
    I would like to, however, preface my remarks by saluting 
you for your candor and your generous comments as it related to 
the INS, and I am sure that your true feelings were somewhat 
restrained in order to give the benefit of any doubt to the 
agency, and you as well, Mr. Serrano.
    Mr. Chairman and Members of the Committee, thank you very 
much for this opportunity to appear before you today on a very 
important request that I have. This is an issue that we have 
talked about for a long time.
    This year, I ask that you allocate $36 million in fiscal 
year 2000 to the CJS appropriations bill to expand a successful 
INS program that identifies criminal aliens in local and county 
jails prior to arraignment, and holds them for deportation 
after their sentences are served. These funds would allow INS 
to expand the program to 40 countries.
    In the 105th Congress, we overwhelmingly passed legislation 
to expand the program. In fact, the vote was 410 to 2. It is 
not often that we get that many members who can agree on what 
day of the week it is. And then, subsequent to that, President 
Clinton signed the bill into law on December 5, 1997.
    This successful and important program began as a pilot 
program in Ventura County, in my district, and during its first 
2 years in Ventura County, INS officials identified more than 
2,200 criminal aliens. Approximately 60 percent of all of those 
screened were deemed to be illegally in the United States.
    Many of them were violent criminals with a long history of 
arrests and convictions. Without this program, many of those 
criminal aliens would have been released back onto our streets.
    Let me illustrate how important this program is in the 
lives of our citizens. On November 5, 1996, one of my 
constituents, Isabel Guzman, was working in her Santa Paula 
restaurant when Felix Mendez Magana walked in. He had been 
drinking. He brandished two handguns. He argued with another 
customer. Isabel asked him to leave. Magana did, and then 
returned a few minutes later, gunned her down and killed her. 
Magana is an illegal alien. He had two previous arrests for 
assault with a deadly weapon in the same district. Had this law 
been in effect earlier, Isabel very likely would be alive 
today. She was only 30 years old.
    Needless to say, this program has unqualified support of 
local police and prison officials. Mr. Chairman, this program 
has proven its worth. I ask that you include the $36 million to 
expand it to the other jurisdictions across the country. Mr. 
Deal, who was here earlier, was speaking on this issue 
indirectly.
    As a part of the appropriation, I would also request that 
you require the INS to screen for criminal aliens on a full-
time basis, including those times when the highest number of 
arrests occur.
    Furthermore, given the INS's reluctance to fully implement 
this crime-fighting program, I request that the Subcommittee 
include language as specific as possible that will lock the 
money into a local jail program.
    Thank you very much for all your continued support.
    Mr. Rogers. This program makes so much sense and has been 
so effective. No wonder the INS does not back it. [Laughter.]
    Mr. Gallegly. Let me just add that the INS testified before 
our committee aggressively in opposition to this legislation. 
It passed the House 410 to 2, and it was passed under unanimous 
consent on the Senate side.
    Mr. Rogers. Thanks to the gentleman's efforts in 1998, we 
increased the program by $6.8 million. In 1999, we increased by 
$10 million the program for a local jail initiative.
    I think there is about $20 million in the base for 1999.
    Our problem is money. If we can find some money, this is 
going to be at the top of the list.
    Mr. Gallegly. I appreciate that, Mr. Chairman, and I would 
ask you to look as hard as you can, but equally important to 
the money is that we provide the language to lock this money in 
so that we do not find it going to other places, as has 
historically been the case.
    Mr. Rogers. Yes, I agree with you, but the problem is INS 
just does not pay attention to Congress. You can put money in 
there, and it may wind up on the other side of the world. That 
is why I am for abolishing the agency.
    Mr. Gallegly. I would like to join your parade, Mr. 
Chairman.
    Mr. Rogers. I have a bill, by the way.
    Mr. Gallegly. Sign me on.
    Mr. Rogers. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Neal, we will make your statement a part of 
the record, and if you can summarize briefly, we would 
appreciate it.
                              ----------                              --
--------

                                          Thursday, April 15, 1999.

                         OLD STURBRIDGE VILLAGE


                                WITNESS

HON. RICHARD NEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Neal. Thank you, Mr. Chairman.
    Mr. Chairman, I am here to speak to you and members of the 
Committee today on behalf of what is truly a national treasure, 
Old Sturbridge Village. It has been a tourist destination for 
millions of Americans over the last 50 years, and essentially, 
my specific request today is for the purpose of helping them to 
construct a new threshold center at the entrance of Old 
Sturbridge Village that would be part of the broad interpretive 
success that the museum has had over these last five decades.
    At this museum, Mr. Chairman, it is one that encourages 
people to participate, not just to observe. It has been a 
treasure for school children in particular across the New 
England region and indeed from points much beyond.
    What we are asking for is the opportunity to explore the 
New England roots of this Nation be reinforced and highlighted 
once again.
    The specific funding request, Mr. Chairman, is for $1.8 
million. I know as Republican members of the Congress, you will 
be happy to hear that there has been an effort to raise the 
other half privately, and my sense is that much of that has 
indeed already been accomplished. I think of the $1.8 million 
in private fund-raising, they have already secured $1.5 
million. So that demonstrates the nature of the commitment that 
has been made by the private sector in the central part of 
Massachusetts.
    At the center, people would be able to learn about the 
early travel, the community life, and trace the history of 
food, ways of cooking, and it would be used as well as an 
opportunity for people to conduct symposiums and to speak to 
the remarkable history that New England has given to the rest 
of the Nation. We still treasure that sense of independence 
that has been such a critical part of our collective history in 
New England, and we believe that by once again enhancing the 
role that Old Sturbridge Village plays not only from an 
educational perspective, but just as importantly from a living 
perspective that once again millions will benefit in the future 
as they have in the past.
    Mr. Rogers. Who owns the village?
    Mr. Neal. It is privately owned.
    Mr. Rogers. It sounds like a wonderful project, and the 
gentleman is to be congratulated for promoting the project. 
Again, as I have said before, our problem is with money, to be 
able to work. I do not think we can pass these appropriations 
bills with the budget caps that we are having to live with. 
There is just no way. There is just not any money there.
    In this Subcommittee, for example, we have got to find an 
additional $4 billion to do the Census, and not to mention the 
defense problems that are going on, but nevertheless that is 
our problem, not yours.
    We appreciate your testimony, and we will look at it very 
carefully.
    Mr. Neal. I understand, Mr. Chairman, of course, in these 
sessions, this is like public confession. There will be an 
opportunity for private confession as well. So I will be trying 
to catch up with you.
    Thank you all very much.
    Mr. Rogers. Thank you, Mr. Neal.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Lamar Smith.
    The Chairman is welcome. He has been a warrior on INS 
issues and is our collaborator on all of those efforts, and he 
is our leader. So we welcome you here. If you can, summarize 
your statement.
                              ----------                              --
--------

                                          Thursday, April 15, 1999.

                          INS FUNDING REQUEST


                                WITNESS

HON. LAMAR S. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Smith. Thank you, Mr. Chairman. I will do so, but let 
me first say that I am particularly pleased to be here because 
I believe it is important for the authorizing subcommittee to 
work closely with the appropriating subcommittee that you chair 
to ensure that the resource needs of the Immigration and 
Naturalization Service are met in a manner consistent with the 
policy priorities of the Congress.
    Mr. Chairman, you and I share, as you just mentioned, many 
concerns regarding the INS. The agency has seen an increase in 
resources from $1.4 billion in fiscal year 1992 to nearly $4 
billion for the current fiscal year 1999.
    However, the agency has not produced the results that we 
expected. I am sure that you are aware of Syracuse University's 
recent Government Performance Project which studied 15 Federal 
agencies. The INS received the lowest average grade of all 15 
agencies. So it is obvious that money alone will not fix the 
problems of the INS.
    Also, the Administration's request for fiscal year 2000 
does not address several key priorities. First, the 
Administration requested no new Border Patrol Agents for fiscal 
year 2000. This is incredible because the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996 authorizes the 
INS to hire 1,000 new Border Patrol Agents each year to fiscal 
year 2001. To request no new agents is a flagrant disregard of 
Congress' action in passing the 1996 Act by an overwhelmingly 
bipartisan majority.
    These additional Border Patrol Agents will not just help in 
defeating attempts at illegal entry. They are crucial 
participants in the war on drugs, and 70 percent of the illegal 
drugs entering the United States come across our Southwestern 
border. Except for a very small number of Customs and DEA 
agents, the Border Patrol is our only line of defense.
    Although the problems of our Southern border are well 
recognized, drug smuggling, illegal immigration, and terrorism 
are increasing at the Northern border as well, where there are 
only 300 Border Patrol Agents for more than 3,500 miles of 
border. The lack of resources at the Northern border mirrors 
that at the South and jeopardizes our national security.
    Every Texas Border Patrol Chief that we have talked to, as 
well as those along our Northern border, have stated that they 
desperately need more Border Patrol Agents. The only Member of 
Congress who has served in the border patrol, Congressman 
Silvestre Reyes of Texas, discounts as unfounded the 
Administration's claim that the Border Patrol has grown too 
rapidly, and inexperienced agents are a cause of concern. It is 
obvious that the professionals with the most knowledge about 
training support for more Border Patrol Agents. We have a White 
House that wants to surrender the war against drugs, and in my 
judgment an Attorney General who is waving the white flag.
    I might point out that the administration's own drug czar, 
General McCaffrey, has said we need 20,000 Border Patrol 
Agents. We have only 9,000 today, which is one-third of the 
number of police officers just in the City of Chicago alone.
    Second, the detention and removal of criminal aliens should 
be a priority for the INS. However, its budget request shows 
that it is not. The problem is enormous. A quarter of all 
Federal prisoners today are non-citizens.
    The Justice Department tells us that 60 percent of all 
released prisoners are arrested again for new crimes within 3 
years. This threat can be significantly reduced by removing 
non-citizen criminals from the United States.
    The INS consistently fails to deport criminal aliens, which 
endangers our families and our neighbors. Congress recognized 
this when it passed and President Clinton signed the bipartisan 
1996 immigration reform law. The law mandated detention of most 
criminals until their removal.
    The INS was granted an additional 2 years to implement the 
law. Congress has doubled the funding for detention and 
deportation since 1996 to $730 million. Yet, the INS is still 
not ready to implement the law.
    There are immediate steps the INS could take. It could free 
up the 2,700 beds by moving long-term prisoners to Federal 
prisons. A recent GAO report concluded that the INS could save 
another 1,700 beds and $40 million a year by completing removal 
proceedings before deportable prisoners are released.
    Third, the INS has failed to develop a comprehensive 
interior enforcement strategy to apprehend and remove illegal 
and criminal aliens from the interior of the United States. It 
appears that the INS intends to allow all 5 million illegal 
aliens now residing in the United States to remain here. The 
administration's request for fiscal year 2000 requests few 
additional resources for interior enforcement.
    Mr. Chairman, these facts lead us to the obvious conclusion 
that the INS is not serious about enforcing immigration laws. I 
hope that your subcommittee will question the administration's 
commitment to enforcing existing law and find a way to provide 
additional resources. Congress should act to reduce illegal 
immigration and protect our citizens from illegal drugs even if 
the administration will not.
    I thank you again for the opportunity of sharing my 
suggestions with you, and I want to personally thank you for 
all you have done in the past to make sure that we have the 
resources that we need to both reduce illegal immigration and 
reduce the flow of illegal drugs and also stop terrorists from 
entering the country.
    Mr. Rogers. I thank the gentleman.
    As I have said before, as Chairman of the Immigration 
Subcommittee on Judiciary, you have been the leader in trying 
to reform the INS. That was my attitude for the first 15 years 
I served on this Subcommittee, and I came to the conclusion 
that they are not reformable. So I concluded that the only way 
to try to get at the problem that faces the country is to find 
another agency to do it. So I would abolish INS and let the 
Justice Department do the law enforcement, Labor do the labor 
law enforcement, and the State Department do the other, and 
failing that, to separate out the law enforcement from the 
services portion of INS into two different agencies, as the 
gentleman, I think, agrees.
    Mr. Smith. Mr. Chairman, I was going to agree with you that 
I think that that is a good idea, but I would also say just in 
the last few weeks, we have heard from a number of Border 
Patrol Sector Chiefs who all have endorsed the concept that you 
have just mentioned that we do need to separate the two 
functions of the INS, the enforcement as well as the 
processing.
    I know that you are active in trying to achieve that goal, 
and you will have a bill shortly to do that. We look forward to 
supporting it along the process.
    Mr. Rogers. I appreciate that.
    Mr. Serrano. If I may, very briefly, I think it is 
important to note also that the Commonwealth of Puerto Rico has 
asked for an increased number of border patrol. We do not think 
the island is a border, but as you know, they have an influx of 
people coming in by sea. At this committee, folks testified 
that Puerto Rico has become--just the issue of drugs coming 
into the island and just coming up to Florida and then to New 
York. So I think we have to keep that in mind.
    Then, once again, Mr. Chairman, this is a fine example of 
some of the things that we were talking about before. The 
gentleman and I have disagreed at times about how to deal with 
folks who come into this country to wash dishes, and this harsh 
treatment that is given to them by the Immigration Department, 
but I have no problem with somebody who hits a little old lady 
over the head and takes her wallet staying in the country and 
enjoying the country. So, even there, I have my problems with 
INS in that they seem to treat the dishwasher much rougher than 
the treat the criminal.
    Mr. Rogers. Yes, but that is INS. [Laughter]
    On detention, which is the thrust of what you talked about, 
the 1999 supplemental request was for $80 million. That amount, 
plus an expected additional $31 million reprogramming request, 
will likely cost about $150 million in fiscal year 2000. Yet, 
the administration request to back up the supplemental? Zero. 
Zero.
    Then, to detain all of the criminal aliens on top of that 
is another $150 million, but I am as frustrated with INS as you 
are.
    Mr. Smith. Mr. Chairman, I could not agree more. We hear 
all of these words about the need to reduce the flow of illegal 
drugs, the need to reduce illegal immigration, and we do not 
get any requests for funds by the Administration, the same 
thing on the detention. We know the desperate need there, and I 
appreciate both of my colleagues saying that we do, and yet, 
the Administration itself did not request the necessary funds. 
So it is frustrating.
    Mr. Rogers. Thanks so much.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Chairman McCollum.
    I am sorry to make you wait. We will make your written 
statement a part of the record.
                              ----------                              

                                          Thursday, April 15, 1999.

              FUNDING PRIORITIES FOR LOCAL LAW ENFORCEMENT


                                WITNESS

HON. BILL McCOLLUM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. McCollum. I will summarize as briefly as I can, Mr. 
Chairman and Mr. Serrano.
    First of all, I want to say thank you. I do not think that 
there has been any more cooperation between any two authorizers 
or appropriators than there has between this subcommittee and 
your subcommittee. So it has been a good 4 years.
    I intend to hold hearings in the Crime Subcommittee on the 
next 4 years as to what should be the Federal funding 
priorities for local law enforcement. We need to reexamine 
that, and we are going to be doing that in the near term.
    However, at the present time, there are a number of 
programs that you are fully aware of that I have come before 
you today to encourage you to continue, and with our 
assistance, we will be glad to give it to you. We will get to 
that authorization.
    First of all, I think we now have, as Mr. Scott said 
earlier, the opportunity to fully authorize for the first time 
the Juvenile Accountability Grant, the program that you have 
graciously put forward each time we have asked you to, without 
our having been able to complete that deal, but it looks good 
now.
    I also expect to reauthorize in some form the local law 
enforcement block grant program that will expire otherwise this 
year. It is my recommendation generally that you maintain the 
status quo with regard to fiscal year 2000 law enforcement 
funding.
    First of all, with regard to the block grants, that is, the 
local law enforcement ones, I think the key there is the 
flexibility that has been maintained in those. If you will 
recall, in 1995, when this program came into existence, we had 
an authorization intending $2 billion a year to be 
appropriated. Actually, the appropriation has been just over 
$500 million in each of the last 4 years, and that has proven 
entirely adequate. So my request is that you simply continue 
that $500 million for the next year.
    I regret deeply the administration has zeroed out the 
funding, as you know. They do not have any request at all in 
here, and I think that is a huge mistake. And it is indicative 
of the fact that they do not, and have not, supported this very 
flexible local community, county, commission, city council 
program.
    Truth-in-Sentencing Grants. We may be nearing the end of 
this program, but I think it should go on at least another 
year. If you will recall, on this one, too, there was a 
substantially larger authorization than the appropriations had 
been allowed. It was designed originally to go up from $1 
billion to $2 billion over 5 years. We have had a pretty steady 
stream of $425 million a year, and I think that should continue 
this next year.
    The benefits have been really good. Nearly 30 States are 
now requiring violent criminals to serve at least 85 percent of 
their actual sentences, and 4 years ago, it was less than 10 
States that did that. So I think the incentives and the reason 
for that grant are there, and the benefit of locking up violent 
criminals is there. So, if we can carry on at least another 
year, I think we will pick up several more States. We will 
never get to 50, as 30 is very good, and that is the objective, 
is to assist them, but many of these States have a need, as I 
understand it, because of the incarceration and because some of 
the flexibility in this funding to be able to support what they 
have already built. We certainly do not want them to go back to 
the program of revolving doors.
    Third, with regard to the money on juvenile accountability, 
I think we would be very happy with the $250 million that you 
put there last year, to give it again this year. The bill I am 
going to produce--I think Mr. Scott will call for $500 million 
for 3 years. I hope that you can increase a little bit, the 
juvenile grants from 250, but that is going to be something you 
are going to have to judge. I think when you see what we put 
out in the bill, this is going to be an area where if there is 
any shift of money in the area to increase anything, I would 
encourage you to look at doing it in that area as opposed to 
the prisons or the local block grants.
    Technology support. You have been good about that. I just 
want to make a word about forensic labs, criminal history 
records, DNA analysis. They all need sustained funding. We do 
not pound the table on that. They are not new bills, but it is 
really important that they not be overlooked in the process of 
your funding because that is the bread and butter that makes 
these programs work.
    One program bothers me a lot, and I would be very remiss if 
I did not mention it to you. We are near the end of this Cops 
on the Street program, the 100,000 cops, but there are some 
very serious questions about the 100,000 Cops on the Street 
program.
    I definitely do not think we should expand it, as the 
administration has requested, for another 50,000 police 
officers. Maybe you saw, as I did, the editorial in USA Today 
earlier this week in which they have roundly criticized the 
100,000 cops program. It has not produced 100,000, and it has 
not produced an efficient system.
    In fact, there is an indication that the money is not going 
where it should go, and it is going to other places. We are 
going to hold hearings on it. It is a very important thing, and 
I have just got all kinds of question flags on this program, as 
I am sure you do.
    Last on my list is DEA. I am really concerned about this 
one, Mr. Chairman. DEA has requested 400 new officers and 
agents to move through their Quantico program each year. The 
administration has not proposed any new agents this time 
whatsoever, not a single one. They have requested 200 
intelligence analysts at DEA, and there are only 6 intelligence 
analysts that the administration has proposed.
    I do not know why they are trying to find the savings here, 
but DEA is our bulwark, front line for drug fighting, and it 
is, of course, a principal concern that I know you have shared 
with me over the years, but this is just totally unacceptable. 
I cannot imagine why there is no administration support, Mr. 
Serrano and Chairman Rogers, for these additional agents, or at 
least some of them. Good Lord, that is a huge difference from 
zero to 400 or zero to 200 in the two different areas.
    There is also no money in the administration's budget for 
the proposed DEA Intelligence Training Academy at Quantico, and 
I think that, too, is a big problem. So I would encourage the 
subcommittee to find a way to appropriate monies for these DEA 
programs, whether the administration does or not. I just do not 
see how we win the war on drugs without DEA, and without giving 
them some resources that they need.
    So that is a brief summary, Mr. Chairman, and I thank you.
    Mr. Rogers. On the last one first, on DEA, we are trying to 
find out what happened to $330 million that we gave them.
    Mr. McCollum. Fair enough.
    Mr. Rogers. They cannot account for it.
    For example, in the Bahamas, we had funded 11 new agents, 
and as of about 2 weeks ago, none of them were there. This was 
in the fiscal year 1997 budget. So we questioned that, and now 
those agents are there.
    In Puerto Rico, we cannot find out. They do not know. They 
will not tell us. So I am frustrated with DEA right now. We 
have funded DEA with large increases. We have doubled their 
budget in 3 years, doubled the funding level in 3 years out of 
this subcommittee.
    Mr. McCollum. I know you have.
    Mr. Rogers. And I am just frustrated because we cannot get 
a handle on where it is going. We know it is not going to 
agents, where we need them, and that troubles me very much.
    Mr. McCollum. Mr. Chairman, I would be more than happy to 
work with you on that. We will review things with you and try 
to get them into shape because they are critical. You would not 
have funded them like that if you did not share with me the 
concern that their job is very, very important.
    Mr. Rogers. It is very critical, and it is a good agency. 
Administrator Constantine is a fine man. He brings to that job 
the ``cop on the beat'' attitude, which I think it needs, but 
we have got to have accountability in the dollars. Right now, 
we are not getting that, and so I would welcome your help on 
that.
    I share your views, of course, on block grants. That is a 
congressional creation. Block grants are 100-percent funding 
for indefinite periods of time to localities, and they can use 
the money as they see fit, not as we tell them how to use it, 
which is what they need. Some places need equipment. Some need 
salaries. Some need something else, and that is fine.
    The COPS program, of course, is only for COPS salaries, and 
it is a 3-year program. Increasingly, each year, the community 
has to pay a bigger share of it, and now they cannot afford it. 
They have reached the 100-percent level, and they are having to 
lay those people off because their budget cannot stand it.
    We told them at the outset that that would happen, all of 
us did.
    Mr. McCollum. That is right.
    Mr. Rogers. That is the reason we created the block grant 
program for that very purpose, to give more flexibility.
    So I share your views on the block grants and the COPS 
renewal and all of that, and as I have said before, the 
gentleman is the father of the juvenile justice programs in his 
subcommittee and the Congress. I wish you could convince our 
brethren on the other side of the Capitol as you have convinced 
us.
    Mr. McCollum. I am optimistic, Mr. Chairman, this time. 
Senator Leahy and I have reached an understanding and believe 
that that bill would have been signed into law the last 
Congress if it had not been for some Administration objections 
at the end of the day, and it looks like with Mr. Scott's help 
now that we are going to do it. I am really very optimistic.
    Mr. Rogers. I congratulate you, and you do a great job in 
your chairmanship over there.
    Mr. Serrano. Mr. Chairman, thank you.
    Just very briefly on two points. First of all, I would hope 
that your problems of opposition to the COPS program is exactly 
as I heard it, one about the management, and not necessarily 
against the issue of more cops on the street because it is a 
good program and we need more police officers.
    On the other hand, I would hope that when you deal with 
some issues over there in your subcommittee which end up 
advising us on things to do that you look at this whole issue 
of how we select, train, and assign police officers in this 
country.
    At 3:00 this afternoon in New York City, the largest 
demonstration since the civil rights movement will take place, 
people from all walks of life coming together, who have never 
been seen together, to protest against the issue of police 
brutality which has become a dividing issue in our city.
    I am one of those who thinks that it is not intentional. It 
is people who are never trained properly and other people who 
should never be police officers and who fear people they are 
supposed to police or dislike them or whatever. I would hope 
you look at those issues as you deliberate.
    Mr. McCollum. Mr. Serrano, I share your concern about 
police brutality wherever it occurs.
    I find the flip side of that for your city to be that it is 
the model where community policing has worked.
    Mr. Serrano. Exactly.
    Mr. McCollum. I want to assure you that we will as a 
subcommittee on the authorizing side be reviewing the whole 
COPS program. I want to know what the local community officers 
and local community leaders feel about these things. They are 
very diverse in their views, and the criticisms, as you know, 
are wide-ranging, but your city has been a prime example of 
where it has been positive.
    Mr. Serrano. Exactly.
    Mr. McCollum. But there are other places where, 
unfortunately, it has not been.
    Mr. Rogers. We thank the chairman.
    Mr. Serrano. Thank you.
    Mr. McCollum. Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Mr. Smith and Mr. Hoyer, I understand will 
jointly appear. Is that correct?
    We will make your written statements a part of the record, 
and we would invite a brief summary. We would hope you would 
not talk yourself out of your monies, which we always give to 
you.
    Mr. Serrano. He has a way with words.
                              ----------                              

                                          Thursday, April 15, 1999.

                          HELSINKI COMMISSION


                               WITNESSES

HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
HON. STENY HOYER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Smith. I will be very brief, Mr. Chairman, and thank 
you. Thanks for letting us both take part on the record.
    Very briefly, the Helsinki Commission, as you know, was 
formed by an act of Congress in 1976. It was formed to try to 
ensure compliance with the Helsinki final act and all the 
follow-up documents and agreements with the now-54 states that 
make up the Organization for the Security and Cooperation in 
Europe.
    Our commission has 14 full-time staff. They have been below 
the pay grades of other professional staff, and we have been 
trying to rectify that in recent years.
    Mr. Hoyer, the ranking member, and myself as Chairman--he 
was Chairman in the past, and I have served as ranking member. 
I have been on this commission now for nine of my ten terms in 
the House, and it is probably one of the most under-heralded, 
but one of the most effective especially in Europe--
organizations of government because our staff and members are 
always interfacing with the heads of the various parliaments, 
foreign ministers, on Helsinki issues, whether they be trade, 
human rights, human dimensions, and we have held a series of 
many briefings and a number of hearings in the Capitol.
    So it is very much of an engaged hands-on type of 
commission. We have asked for $1.25 million for this year. That 
is the President's request, which can be found on page 40 of 
his budget, and it does represent an $80,000 increase over the 
appropriated level of 1999. But, again, that is to try to 
rectify this shortfall that we have seen, through no fault of 
anyone, over these many years with regards to our professional 
staff.
    We have a listing of all the staff and what their agendas 
or portfolios are, and they are experts in the field. The 
longevity of the staff has been that these people have 
institutional memories that are just golden because they know 
the issues. They know all the players, and they are a 
tremendous source for the State Department, which calls on them 
at all the ministerial meetings and all the follow-up meetings 
that are held throughout Europe. There is one planned for 
Turkey in the fall. The Helsinki staff here has just the 
institutional memory that has been invaluable in promoting 
these important issues.
    Ben Nighthorse Campbell, the Co-Chair, could not be here 
because of scheduling, but will submit a statement for the 
record, and I would like to yield to Steny.
    Mr. Hoyer. Thank you, Mr. Chairman.
    You have been supportive. Obviously, you recognize the 
growing importance of CSCE, that is, the Conference on Security 
and Cooperation in Europe, which in 1990 in Paris, as you 
recall, was changed to the Organization on Security and 
Cooperation in Europe, indicating it had a much greater 
operational role.
    In fact, we had testimony just the other day. Chris called 
a hearing. Ambassador Walker testified about the peace-keepers 
who were taken out of Kosovo--but while they were there, at 
least the atrocities were not occurring. The 2,000 or so were 
under OSCE direction, as you know. So the OSCE has become very 
operational. It is operational in Bosnia. Both the 
Parliamentary Assembly and the Ministerial Council have become 
very engaged in some of the most troubled spots in Europe. The 
support of this Commission is very modest indeed when 
confronted with the complexity of the world as we find it 
today.
    I want to thank you, Mr. Chairman, and the committee for 
your continuing support.
    Mr. Rogers. As you say, it is a modest amount of money. It 
is $1.25 million. The requested increase is $80,000 over fiscal 
year 1999. Is that just to cover inflation?
    Mr. Smith. It would be to continue the slow and modest 
increase for salaries.
    Mr. Rogers. There is no additional personnel or equipment?
    Mr. Smith. There is one new personnel hire. A former 
Commission consultant/counsel for Property Rights has been 
hired as a full-time staff member.
    Mr. Hoyer. Mr. Chairman, I was just going to add, one of 
the things I have seen, and it is unfortunate that the public 
does not see, is that when Al D'Amato took over as chairman in 
1985, there was a lot of pressure to politicize the staff of 
the Helsinki Commission from people outside the Commission.
    Senator D'Amato refused to do that, and, in fact, there was 
a professional staff in place by 1985. Obviously, there have 
been changes, but a lot of them still remain, and they were 
selected by Senator Dole and by Dante Fascell back when they 
were running the Commission. It is really a staff of which I 
think all of us could be very, very proud, and it is a 
professional staff, not a political staff.
    Mr. Rogers. I want to thank both of you for your dedication 
to this humanitarian cause. It is a thankless job for the most 
part, but we thank you.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Hoyer. Thank you, Mr. Chairman.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Ms. Hooley, I think, has stepped out for a few 
minutes.
    We will call Ms. Jackson-Lee.
    Your written statement will be made a part of the record, 
and we would hope that you can summarize briefly.
                              ----------                              

                                          Thursday, April 15, 1999.

                          INS DISTRICT OFFICES


                                WITNESS

HON. SHEILA JACKSON-LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman.
    First of all, let me thank you and thank Ranking Member 
Serrano for your kindness.
    My chairman said that if he had seen me in the corner 
there, he would have said complimentary remarks about his 
ranking member. That is Lamar Smith. As I listened to your 
conversation, let me bring to the table at least a measure of 
agreement on some of the problems that we are facing with the 
INS.
    It is my philosophy--and, Ranking Member Serrano, I have 
heard your comments--that we are a Nation of immigrants, but we 
are a Nation of laws. So we would like to see the laws enforced 
against the criminal aliens, if you will, but we also want the 
treatment, the decent and humane treatment, of those who come 
and wash our dishes, but also come for an opportunity.
    Mr. Chairman, if I might, I have not written this issue, 
but if you would allow me, I am a new ranking member on this 
particular committee and just wanted to add a word for State 
USAID with respect to the refugee problem and hope that as the 
supplemental appropriations come forward that we will look 
kindly on the responsibility that they will have in building 
encampments to house some of the refugees that are coming 
across the border, and I just wanted to add that. It is not in 
my statement, but I have been meeting with the State Department 
on that issue.
    Again, I would like to thank both of you. I have had an 
opportunity to speak with Members of Congress about the INS and 
have listened to their concerns. The concerns that I hear over 
and over again from my constituents and from other Members of 
Congress is that something must be done about the backlog of 
casework with the INS district offices.
    There is a lack of resources and technology to deal with 
the overwhelming amount of casework that needs to be dealt with 
the fiscal year 2000 budget, which contains funding provided in 
1999 at a level of $124 million to decrease the backlog that 
has accumulated.
    However, I am told by the INS that these monies only bring 
us up to speed, and an additional $15.6 million should be 
included in the citizenship and benefits immigration support 
program direction account. This will provide for 200 
adjudicators and additional clerical support staff to be 
brought on board to augment the completion of the 
naturalization application.
    This is in response to Mr. Serrano's comments in how people 
are treated at the INS and also responds to, Mr. Rogers, your 
continuing frustration, but whether or not they even listen to 
us.
    Let me cite for you a very tragic story. As I said, we are 
a country of immigrants, but a country of laws, and when we ask 
people to comply with the laws, why can't we get the job done?
    The case of Azimi Atia of Israel, he had been living in the 
United States in Houston for several years as a legal permanent 
resident, a college graduate, employed with the Exxon 
Corporation, and applied for a U.S. citizenship in early 1997.
    He desperately wanted to become a citizen so that he could 
receive a passport to travel back home to Israel to visit his 
dying mother. Due to the backlog, he was not granted 
citizenship in time before his mother died. Since then, he has 
suffered from severe depression, and he is coping every day of 
not becoming a citizen. This problem must be corrected, and we 
must do it in Congress. The additional $15.6 million will do 
just that.
    The other issue that I wanted to bring to your attention is 
the U.S. border patrol agents which has been discussed by 
Chairman Smith. We realize that although there has been an 
appropriations or an authorization for 1,000 border patrol 
agents since 1996, this has not occurred. INS did not request 
any additional agents in its proposed budget for fiscal year 
2000.
    I put on my investigatory hat to see what the problem was, 
and the representation has been made that with the market as it 
is, the lucrative job market, it has been difficult to secure 
these much-needed border patrol agents, and also, of course, we 
want to ensure that they are well trained.
    The appalling number of 300 along our Northern border is 
something that we cannot tolerate. The border patrol is not 
able to recruit enough agents to meet this authorizing level. 
Therefore, I would ask the committee to consider a $3.7-million 
additional amount to raise the starting-salary level from GS-5, 
which is $22,000, if you can believe it, for a college graduate 
to come into the border patrol, which is one of their 
requirements, to a GS-7 level, which will be slightly over 
$30,000, but it will be comparable with other Federal law 
enforcement agencies and certainly meets the responsibilities 
of the border patrol agents.
    Also, Mr. Chairman, the border patrol agency loses a lot of 
its agents when they reach the GS-9 level. That salary level is 
off about $33,000 because there is currently a ceiling on how 
much they can earn.
    So I would ask, Mr. Chairman, that we upgrade the grade 
level for experienced border patrol agents so they are allowed 
to receive salary increases. Right now, only 30 percent of the 
border patrol agents benefit from any increase and are able to 
move beyond a GS-9 and a GS-11 due to a very competitive 
process. The border patrol agents must remain at a GS-9 for 
life.
    To lift this salary ceiling so that the majority of border 
patrol agents can receive an increase and be allowed to advance 
to a GS-11 would take an additional $43.7 million to the 
Enforcement Affairs account.
    I would simply say, Mr. Chairman, out of the frustration 
that they do not listen, as I have heard you say, I believe 
these resources would quickly be consumed by INS for the 
purpose that we are trying to do, listening to the frustration 
of the already-existing border patrol agents and slightly 
knowing the reality of a good employment market or job market 
so that the difficulty of getting people to areas where they 
need, i.e., the Northern border, is a reality, in spite of the 
INS and concerns thereof.
    I would look forward, Mr. Chairman, as I move quickly to 
two other points, to working with you on INS concerns. One of 
the problems that I see is the general attitude and the service 
operation and treatment of the individuals who come to that 
agency. I should not say legally, but with legitimate purposes, 
meaning that they legitimately have their papers. They are 
legitimately in the process and the treatment that they get. I 
hope that we will have the opportunity to collaborate.
    Let me quickly juste thank you for the increase to the 
Community Relations Service that you provided us last year. As 
you well know, I come from Texas. So I was actively engaged in 
the tragedy that occurred with the killing of Mr. James Baird. 
If I can cite the CRS as being a productive unit of the 
Department of Justice, let me tell you, Mr. Chairman, how 
effective they were in Jasper, Texas.
    Not only did they go in there, but they were actually 
welcomed by the local citizens and businesses alike. The CRS 
has been helpful in St. Petersburg, Florida; Leland, 
Mississippi; Phoenix, Arizona; Brunswick, New Jersey; and 
Portland, Oregon. They are not limited to Southern communities. 
In fact, they have had a presence in over 190 communities 
throughout the Nation.
    We were able to raise their $5.3 million last year by 
$500,000. I would simply ask both you and the committee to 
consider the $2.1 million that has been asked for by the 
administration, but I would look forward to working with you on 
however we could assist them because they are now declining 40 
percent of their cases.
    Finally, Mr. Chairman, I chair the Congressional Children's 
Caucus and note as a member of the House Judiciary Committee 
that we have been seeing an increasing number of murder victims 
who are under the age of 18, 2,100 in 1997, and 900 of those 
were under the age of 13. More than two-thirds of those were 
killed with a firearm, and we are seeing an increase in the 
amount of women encountering the justice system at a young age.
    In 1997, 748,000 young women were arrested. I would hope 
that you would consider favorably the juvenile delinquency 
prevention programs, which whenever you go to local 
governments, they applaud enthusiastically. These are the 
programs that deal with after-school efforts, and they work out 
of the Office of Juvenile Justice and Delinquency Prevention.
    They are key to instructing and helping children understand 
that there are different ways to lead their life. The 
administration has asked for a $95-million request for 
community prevention programs aimed at youth. However, I would 
hope that, together, the authorizers and, of course, this 
committee could look to these programs and provide the 
necessary funding that would include mentoring, truancy 
prevention, gang intervention programs, and many other such 
programs.
    Mr. Chairman, I thank you. I am trying to move with 
deliberative speed. I hope that you will consider--I know that 
you were engaged, as I was discussing it, but I would be very 
open to answer any questions about the INS. I think there are 
many ways of looking at this agency. What I have tried to do is 
sort of bullet-point or hit some immediate issues that have 
been brought to our attention over and over and over again 
about the service element, but also our border patrol men and 
women who serve so ably, but really with a salary scale that is 
really not responding to their service.
    Mr. Rogers. I was engaged in reading your statement as you 
went along with it. So I was following you in your statement.
    Of course, as the new ranking member on the Immigration 
Subcommittee, you are right on target on many of your 
Immigration Service points.
    Barbara Jordan headed the commission that reviewed the INS 
and came back with what I thought was a brilliant report. I am 
just very sad that she is not with us still, but she rendered--
during, I guess, one of the last public service acts she did in 
her life was this commission, which we then copied and tried to 
enact into law, but it met a brick wall. But I still believe in 
it.
    Failing that, what do you think about the proposal that now 
has come forward about reorganizing INS, to not go as far as 
the Barbara Jordan Commission's findings, but to separate the 
agency into two different functions? It is our fault, I think, 
because the Congress gave INS these conflicting duties, service 
on the one hand, law enforcement on the other, and those two 
clash at times, most of the time, but the agency is 
unmanageable for whatever reason, and we pumped money into it. 
We have doubled their budget in the last 3 years. Money is not 
the problem.
    I am so frustrated about it. I know the gentlelady is now 
ranking on that subcommittee with heavy responsibility. What do 
you think about dividing the agency into two parts?
    Ms. Jackson-Lee. Sylvester Reyes is a member of my Texas 
delegation, and we have been engaged in this. I should not say 
funny that you should ask. I would expect it, but just as you 
had asked, I just leaned over to my staff to indicate, to let 
us take a broad look at that proposal.
    My position is that I remain open to solutions to making 
INS work. In the short period of time that I have been a member 
of the committee, and now ranking, the number of the issues 
that suggest that INS needs fixing, I have certainly gotten my 
plate full. I certainly see the need for addressing those 
concerns, and I think the proposal of enforcement versus 
services is one that should be seriously considered, and that I 
will do such.
    Mr. Rogers. If I am not mistaken, Sylvester Reyes' bill 
last year would have done just that.
    Ms. Jackson-Lee. I believe it would, and he is about to 
drop another. That is the one we are going to be looking at.
    Mr. Rogers. He is our resident expert on the border patrol, 
especially, but wherever you look at the INS, whether it is 
backlogs for naturalization, criminal detention monies, across 
the board, their backlogs continue to just astound us.
    We have given them money. They cannot spend it in the right 
way. We cannot get a proper accounting for it.
    I have been doing this on this Subcommittee now for 16, 17 
years, and INS has been, for all that time, the most 
unmanageable agency that we have through different 
administrations. I am not talking politics here. This is an 
agency that is out of control ever since I have known it.
    I think it is our responsibility to our constituents that 
we try to do something constructive about fixing the INS, and I 
hope that we can all come to some bipartisan agreement on it.
    Ms. Jackson-Lee. I think you have been a leader on this 
issue, and it has been painful throughout the years.
    One of the things I would like to say is similar to when we 
all collectively had to take a good look at the IRS. I do want 
to cite the good employees scattered throughout the Nation in 
the INS service, the border patrol agents all trying to do our 
best.
    I would like one day for us to come up here on the Hill and 
say isn't it great news, they are responding to Congress 
persons. You do not know how I feel. Though it is a new 
kinship, I obviously have a relationship with the INS because I 
have been on Judiciary since coming to Congress, but to hear 
Members of Congress say that they have sent a letter to the 
INS, it is almost the death knell for any Congress person to 
hear a constituent stand up in a town hall meeting and talk 
about a letter that they sent that you did not respond to.
    So it certainly is hurtful to hear and striking that many 
Members of Congress have sent letters to that agency, and it is 
6 months later and the letter has not been answered. That is 
just indicative of some of the problems, but I do want to cite 
the good employees.
    Mr. Chairman, I hope that maybe with your staff, there are 
elements of this that you would see, particularly in this 
adjudicator's point, and the salary aspect might be of help on 
a temporary basis.
    Mr. Rogers. Yes, I meant to respond to that.
    Ms. Jackson-Lee. All right.
    Mr. Rogers. They put out an inaccurate press release from 
which, I think, you may have gathered that information on the 
2000 budget. They said in their press release that the 2000 
budget contained funding at a level of $124 million. That is 
inaccurate.
    We already gave them that figure in this current fiscal 
year 1999, and that included 200 adjudicators. So they got the 
money for that. They corrected it later, and we gave them those 
adjudicators in the current year.
    They issued an inaccurate press release, which they have 
not corrected, and you have probably picked up that earlier 
press release.
    Ms. Jackson-Lee. We have been in conversation with them for 
the last couple of days. Let me clarify that because they have 
indicated to us that they need additional adjudicators, and I 
think we obviously do need to get on the same page.
    Mr. Rogers. They have not requested it.
    Again, that is the INS.
    Ms. Jackson-Lee. As I say, we will get on the same page. I 
would like to keep my request at additional levels of 
adjudicators, but I would like to get back and further explain 
that to you.
    Mr. Rogers. Check it out and get back with us. We 
appreciate your testimony.
    Ms. Jackson-Lee. I thank you very much, and I look forward 
to working you.
    Mr. Rogers. Thanks for your work.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Ms. Hooley, we will enter your statement in the 
record.
                              ----------                              --
--------

                                          Thursday, April 15, 1999.

   JUVENILE DETENTION FACILITY, FORENSICS LAB AND CLASSROOMS, LEGAL 
 SERVICES FOR SPANISH-SPEAKING CLIENTS, ENHANCED LAW ENFORCEMENT RADIO 
                      SYSTEMS IN CLACKAMAS COUNTY


                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Ms. Hooley. Thank you.
    Mr. Rogers. If you could, summarize it briefly.
    Ms. Hooley. I will.
    Mr. Rogers. You do not need to read it to us.
    Ms. Hooley. I am not going to.
    Mr. Rogers. Welcome.
    Ms. Hooley. Thank you, Mr. Chairman, for your patience. 
When you talk about the INS, you have hit some real hot buttons 
with me. As a person that has dealt with that agency, I thought 
the IRS was a problem, but it does not even compare to the INS.
    Mr. Rogers. I agree. I agree.
    Ms. Hooley. Most of the people have been talking about 
general programs. Those general programs fund a lot of specific 
programs in all of our districts, and let me talk about what 
they do and some real needs.
    One of my requests is for $3.5 million for a juvenile 
detention facility. The reason for this request is that we have 
four beds in that county, and 650 young people were held in 
detention last year. When the beds were filled, which they 
always were, it meant an hour drive to another facility. 
Usually, that was full, and then they were released, but those 
trips just alone, without counting the officer's time or the 
lack of law enforcement on the streets when they were busy 
driving a child someplace was $120,000.
    The county is absolutely committed to this program. They 
have raised $1.2 million to help stem their juvenile crime 
problem, and they have set aside money for our land for the 
building.
    Second, I just wanted to talk briefly about a $4-million 
project, and that is to build a forensics lab and classrooms. 
This is at a university, a small university that specializes in 
law enforcement and public safety programs. There is no degree 
program anywhere in the area for forensics. As you know for law 
enforcement, it is a growing field where we need to train 
people. We need to also have a lab that all of the law 
enforcement agencies would use. Again, this money is for a lab 
and classrooms.
    In that same small university, Western Oregon University, 
we are also looking for $400,000 to work with the legal 
services for Spanish-speaking clients. It is a region with a 
large influx of immigrants, 10 percent of whom are not fluent 
in English, and frankly, in Oregon's legal system, we do not 
have enough bilingual lawyers, judges, or court personnel to 
serve the Spanish-speaking community in my district.
    Finally, another $4-million request for enhanced law 
enforcement radio systems in Clackamas County. We are on a 
1950's channel. It is hard for fire, police, ambulance services 
to communicate with one another, where work is a larger part of 
the Portland metropolitan region. We need to update our radio 
system to an 800-megahertz.
    So those are my four projects. Those are what those program 
monies are used for.
    Mr. Rogers. I thank the gentlelady for her testimony.
    First, on the juvenile detention facilities, we do not 
earmark in that category----
    Ms. Hooley. Right.
    Mr. Rogers [continuing]. But I would suggest that you try 
for a Juvenile Accountability Block Grant. We have got a large 
sum of money that we have provided in that account for the 
current year.
    Ms. Hooley. Okay.
    Mr. Rogers. So you might try that route on that. That would 
probably be the best way to go.
    Ms. Hooley. Okay.
    Mr. Rogers. As staff has pointed out, the prison grant 
monies that goes to States is another place that you should 
look.
    On forensics science laboratory----
    Ms. Hooley. Yes, laboratory and classrooms.
    Mr. Rogers [continuing]. Our problem is the budget caps are 
killing us.
    Ms. Hooley. I understand.
    Mr. Rogers. This is new money.
    Ms. Hooley. This is new money.
    Mr. Rogers. We cannot even pay the old bills, let alone the 
new, but, anyway, if the caps are removed, then this might be 
possible.
    Ms. Hooley. Is there any category that that makes sense, 
that currently is in the budget?
    Mr. Rogers. For a grant?
    Ms. Hooley. It is an area where we absolutely have to train 
people. It is a growing field.
    Mr. Rogers. Why don't you have your staff confer with the 
Committee staff----
    Ms. Hooley. Okay, we will do that.
    Mr. Rogers [continuing]. And explore the possibilities.
    Ms. Hooley. Okay.
    Mr. Rogers. On your program at Western Oregon on legal 
service professionals, you might want to check also the 
Juvenile Accountability Block Grant area for that. That is 
possible there.
    Ms. Hooley. Okay.
    Mr. Rogers. On your radio equipment, you may want to check 
on the Local Law Enforcement Block Grants that this 
Subcommittee wrote into the law a couple of years ago or so, 
and it is funded at a large amount.
    Ms. Hooley. Right.
    Mr. Rogers. That might cover that area as well.
    Ms. Hooley. I would be happy to work with the INS, I will 
tell you. I have some stories to tell.
    Mr. Rogers. I appreciate that.
    Ms. Hooley. I have visited the agency several times.
    Mr. Rogers. We are probably going to have a bill, a 
bipartisan bill put together that would divide the agency into 
two parts as a step in the right direction. I would invite you 
to look at that when it comes out soon.
    Ms. Hooley. Thank you. Thank you for your time and for 
listening and spending all of your time listening to these.
    Mr. Rogers. Thank you for a very effective presentation. 
Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Chairman Gilman?
                              ----------                              --
--------

                                          Thursday, April 15, 1999.

      COMMISSION FOR THE PRESERVATION OF AMERICA'S HERITAGE ABROAD


                               WITNESSES

HON. BENJAMIN GILMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
CHRIS HILL, PROJECT OFFICER, COMMISSION FOR THE PRESERVATION OF 
    AMERICA'S HERITAGE ABROAD
    Mr. Gilman. Thank you, and, Chairman Rogers, I want to 
thank Congresswoman Capps for allowing me to go ahead of her. I 
have a markup that I have to go back to my committee on.
    Chairman Rogers, I am here on the request on behalf of the 
Commission for the Preservation of America's Heritage Abroad, 
and I submit my full statement for the record and would just 
summarize.
    I am making a request on their behalf for $350,000. They 
are documenting some 500 sites in Romania, some 1,500 ethnic 
and religious sites in Ukraine. They are assisting in restoring 
a desecrated synagogue and establishing a new study center just 
across the river from the infamous Auschwitz death camp, and 
they are working to sign agreements with the Bosnian 
government, beginning the process of renovating and preserving 
a cemetery in Sarajevo, the oldest of its kind in Europe, and a 
symbol of the city's rebirth.
    Regrettably, the commission, while it is making substantial 
progress, it is prohibited, due to financial constraints from 
completing surveys, research, and other procedures necessary to 
protect the cultural heritage with regard to these projects, 
though it is embarrassing for our commission to negotiate their 
agreements in the name of historical, cultural, and religious 
importance, and then to forego any further meetings and surveys 
and other protection due to the lack of money. That is why we 
are asking for that amount. We would welcome the Appropriations 
Committee, Mr. Chairman, to give them sufficient funding so 
that they can move ahead in the good progress that they are 
making.
    Mr. Rogers. I appreciate the Chairman's advocacy for this 
program which he does every year. You are the reason why we 
fund the Commission to be frank with you.
    I am confused. I am told that the 2000 request was for 
$265,000. You say it is $350,000.
    Mr. Gilman. I am asking that it be $350,000 because they 
are undergoing financial constraints in meeting the needs for 
their surveys and research.
    Mr. Rogers. But is it not correct that they requested 
$265,000?
    Mr. Gilman. I think that that is the request.
    There is someone in here from the commission. Would you 
explain your request? Why don't you come on up to the table and 
identify yourself.
    Mr. Rogers. You will need to state your name for us.
    Mr. Hill. My name is Chris Hill, and I am a project officer 
with the commission. We are proud of Congressman Gilman's 
support.
    We asked for $265,000 for fiscal year 2000. So that is what 
our request is for this current fiscal year. We certainly would 
be greatful for any increase that we could receive from your 
Subcommittee to further our site work and our surveys that we 
are doing in several countries in Europe, and as well as move 
forward with our agreements.
    I apologize if the number is incorrect that you have on 
your testimony here. That is what we asked for.
    Mr. Rogers. That would be level funding.
    Mr. Hill. Yes.
    Mr. Rogers. We gave you that increase.
    Mr. Hill. Right, that would be what we received last year.
    Mr. Rogers. We gave you that increase in 1999 over 1998.
    Mr. Hill. Right.
    Mr. Rogers. So our problem is we are going to be short of 
money, like everyone else at this time.
    So, Mr. Chairman, we will give this thing every shot we 
can.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you very much for your advocacy for this 
program.
    Mr. Gilman. Thank you.
    Mr. Hill. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. Ms. Capps, we will enter your statement in the 
record, and we would like for you to summarize, of course, 
please.
                              ----------                              

                                           Thursday, April 15, 1999

   NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, NATIONAL MARINE 
 SANCTUARIES PROGRAM AND THE COASTAL NONPOINT POLLUTION CONTROL PROGRAM


                                WITNESS

HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mrs. Capps. Thank you very much.
    Chairman Rogers, it is a pleasure to be able to testify on 
behalf of your Subcommittee, and I am here to urge support of 
two very important programs under the National Oceanic and 
Atmospheric Administration, NOAA, the National Marine 
Sanctuaries Program and the Coastal Nonpoint Source Pollution 
Control Program.
    I know that Mr. Farr and Mr. Pallone, two of my colleagues, 
have already presented testimony on these important programs. 
These programs represent a crucial investment in our oceans and 
coastal resources.
    I urge the Subcommittee to support the Administration's 
budget request for the sanctuaries and nonpoint pollution 
control programs. Specifically, $29 million is requested for 
the National Marine Sanctuaries Program and $17.5 million for 
the Coastal Nonpoint Source Pollution Control Program.
    Mr. Chairman, you do not have to represent the spectacular 
Central Coast of California as I do to know that our oceans are 
the world's greatest resource. As I was waiting to speak, I was 
drawn to the map on the wall. It is a beautiful map. The 
proportion of blue with green indicates the vastness of our 
ocean resources.
    Oceans are key to the life support system for all species 
and play a crucial role in the daily lives of all of us. Our 
Nation must, and I believe, is poised and ready to take 
responsibility to be good stewards of the oceans, and these two 
programs are essential to that stewardship.
    I want to explain from my perspective the importance of the 
National Marine Sanctuaries Program and the Coastal Nonpoint 
Source Pollution Control Program.
    The National Marine Sanctuaries Program is vital to protect 
and manage our Nation's outstanding marine areas. This program 
does have strong support in Congress, and as you know, I have 
written to the committee, along with 17 of my colleagues from 
both sides of the aisle, in support of the sanctuary program.
    The aquatic equivalent of our national parks, the National 
Marine Sanctuaries Program identifies, designates, and protects 
these areas of the marine environment deserving special 
protection and recognition for their outstanding ecological, 
cultural, historical, and educational qualities. I am proud to 
have one of the designated 12 sanctuaries in my district, the 
Channel Islands National Marine Sanctuary.
    As the only program designed to manage these important 
ecologically sensitive areas, these sanctuary sites not only 
protect our marine heritage for generations to come, but help 
to sustain critical resources and vibrant economies for our 
coastal communities and our country as a whole.
    This year, the sanctuary program has undertaken a new and 
exciting program, the Sustainable Seas Expedition, a 5-year 
public/private partnership involving deep water exploration and 
public education of the national marine sanctuaries, all 12 of 
them.
    The sanctuary program has achieved considerable success, 
but that success risks being diminished by inadequate funding 
levels. This partnership is dependent on the kind of 
relationship that has been established.
    Despite the remarkable ability to leverage additional 
financial support from other governmental and non-governmental 
programs, an increase in Federal funding for the sanctuary 
program is not only fully warranted, but imperative so that 
this program can fulfill its important mandate.
    The other important program that I am here today to discuss 
is the Coastal Nonpoint Source Pollution Control Program. 
Nonpoint source pollution is the Nation's number-one water 
pollution program. Polluted run-off is responsible for closing 
our beaches and contaminating our fish and shellfish. In my 
district, it has been remarkable in the last few years.
    The problem of coastal pollution and beach closures has 
become so serious that local citizens have rallied together and 
formed an organization called `Heal the Ocean' in Santa Barbara 
to address the problem. Heal the Ocean has raised money on 
their own, but it is not sufficient. They also do not have the 
regulatory capacity, but they have the enthusiasm to deal with 
this issue.
    While the group's efforts are to be commended, it really is 
the Federal Government's role to be a strong partner in this 
kind of effort to protect our coastal waters.
    The Nonpoint Pollution Program is of critical importance in 
my locality. I can assure you of that. Modest investment in 
keeping our coastal waters clean will bring a substantial 
payback by improving water quality, protecting human health, 
creating new jobs, and sustaining the current economy that we 
enjoy.
    In my district the ocean and coastal resources are at the 
heart of the local economy through tourism, fishing, and 
recreation, and these are all in jeopardy because of the 
pollution issues.
    I urge the Committee to recognize the importance of our 
Nation's ocean and coastal resources and request that you put 
your backing behind full support for funding these vital 
programs.
    I thank you for the opportunity to testify today, and I 
hope that being last on your agenda does not mean that we just 
get the leftovers. These programs are already in the 
Administrations budget and I would be interested to hear your 
comments.
    Mr. Rogers. On the contrary, it is always common sense that 
the last person has the last word.
    Mrs. Capps. So you are going to leave with that fresh in 
your mind. There is something biblical about that, isn't it? 
The last shall be first.
    Mr. Rogers. Yes, or the first shall be last.
    Mrs. Capps. Or, maybe that, whatever.
    Mr. Rogers. The gentlelady makes a very cogent statement, 
and she represents one of the most beautiful districts in the 
country. In fact, San Luis Obispo, I think, is the projected 
West Coast aim of the new proposed I-66 Highway, which runs 
through my district as well.
    Mrs. Capps. Oh.
    Mr. Rogers. In fact, we just got the first funding for a 
stretch of that highway, which will be constructed in Kentucky, 
but would link----
    Mrs. Capps. It would run all the way across?
    Mr. Rogers [continuing]. All across the country, and I 
would advise the gentlelady to begin work on her end of the 
highway--
    Mrs. Capps. I had better do that.
    Mr. Rogers [continuing]. To try to get us a highway built 
out there so we can connect Somerset, Kentucky, with San Luis 
Obispo, California.
    Mrs. Capps. So you can come out there and check on the 
beaches.
    Mr. Rogers. Check on the beaches and check on the marine 
sanctuary program.
    Mrs. Capps. Thank you very much for your time.
    Mr. Rogers. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Rogers. The hearing is adjourned.
    [The following statements were submitted for the record:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  M E M B E R S  O F  C O N G R E S S

                              ----------                              
                                                                   Page
Barrett, Hon. Bill...............................................   200
Bass, Hon. C.F...................................................     1
Bereuter, Hon. Doug..............................................   200
Campbell, Hon. B.N...............................................   152
Capps, Hon. Lois.................................................   180
Cramer, Hon. Bud.................................................    14
Deal, Hon. Nathan................................................    95
Dickey, Hon. Jay.................................................    23
Farr, Hon. Sam...................................................   100
Gallegly, Hon. Elton.............................................   122
Gilchrest, Hon. Wayne............................................     7
Gilman, Hon. Benjamin............................................   172
Hooley, Hon. Darlene.............................................   167
Hoyer, Hon. Steny................................................   145
Hunter, Hon. Duncan..............................................   203
Jackson, Hon. Jesse, Jr..........................................   199
Jackson-Lee, Hon. Sheila.........................................   156
Lobiondo, Hon. F.A...............................................    71
McCollum, Hon. Bill..............................................   137
Morella, Hon. C.A................................................   115
Neal, Hon. Richard...............................................   126
Pelosi, Hon. Nancy...............................................   206
Roemer, Hon. Tim.................................................    76
Scott, Hon. R.C. ``Bobby''.......................................   107
Smith, Hon. C.H..................................................   145
Smith, Hon. L.S..................................................   131
Stump, Hon. Bob..................................................   197
Stupak, Hon. Bart................................................    86
Talent, Hon. J.M.................................................   186
Visclosky, Hon. P.J..............................................     4
Waters, Hon. Maxine..............................................   217


                     P U B L I C  W I T N E S S E S

                              ----------                              
                                                                   Page
Alliance for International Educational and Cultural Exchange.....   219
American Bar Association.........................................   229
American Federation of Government Employees, AFL-CIO.............   236
American Foreign Association.....................................   241
American Intellectual Property Law Association...................   251
American Oceans Campaign.........................................   257
American Public Power Association................................   261
America's Public Television Stations.............................   267
Antarctica Project...............................................   274
Big Brothers Big Sisters of America..............................   279
CAPE/PETE........................................................   285
Carnegie Hall....................................................   296
CASA.............................................................   301
Center for Marine Conservation...................................   304
City of Gainesville, Florida.....................................   309
City of Miami Beach, Florida.....................................   316
City of Newark, New Jersey.......................................   320
Coastal States Organization......................................   329
Columbia River Inter-Tribal Fish Commission......................   336
Columbia University..............................................   341
Confederated Tribes of the Warm Springs Reservation of Oregon....   347
Consortium of Social Science Associations........................   353
Fairfield University--Information Technology Center..............   359
Florence Immigrant and Refugee Rights Project, Inc...............   363
Florida State University.........................................   370
Global Health Council............................................   374
International Community Corrections Association..................   380
International Trademark Association..............................   383
JASON Project....................................................   389
Kids With A Promise..............................................   392
Massachusetts Foundation for Excellence in Marine Sciences.......   400
Mayors of Upper Mississippi River................................   405
MidAtlantic Employer's Association...............................   407
Middle Atlantic/Great Lakes Organized Crime Law Enforcement......   412
Museum of Science and Industry...................................   421
National Congress of American Indians............................   425
National Crime Prevention Council................................   435
National Federation of Community Broadcasters....................   442
National Legal and Policy Center.................................   446
National Public Radio............................................   457
National Recreational and Park Association.......................   464
National Sheriffs' Association...................................   467
National Coordinated Law-Related Educational Program.............   469
The Nature Conservancy...........................................   476
Northwest Indian Fisheries Commission............................   481
Pinon Community School Board.....................................   485
Rural Enterprises of Oklahoma....................................   487
Sax and Fox Nation...............................................   490
Santa Rosa Memorial Hospital.....................................   493
SEARCH...........................................................   496
Suffolk University-Center for Juvenile Justice...................   505
SUNEI Weather and Climate Technical Advisory Committee...........   510
United Indians of All Tribes Foundation..........................   512
United States-Canada Pacific Salmon Commission...................   522
United States Merchant Marine Academy............................   526
University Corporation for Atmospheric Research..................   533
University of Medicine and Dentistry of New Jersey...............   536
University of Miami..............................................   541
University of Southern Mississippi Institute of Marine Sciences..   551
University of Tulsa..............................................   554
Upper Mississippi River Basin Association........................   556

                                <greek-d>

</pre></body></html>
